<html>
<title> - THOMASINA E. JORDAN INDIAN TRIBES OF VIRGINIA FEDERAL RECOGNITION ACT</title>
<body><pre>[Senate Hearing 107-921]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-921

 THOMASINA E. JORDAN INDIAN TRIBES OF VIRGINIA FEDERAL RECOGNITION ACT

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2694

     TO EXTEND FEDERAL RECOGNITION TO THE CHICKAHOMINY TRIBE, THE 
CHICKAHOMINY INDIAN TRIBE--EASTERN DIVISION, THE UPPER MATTAPONI TRIBE, 
  THE RAPPAHANNOCK TRIBE, INC., THE MONACAN TRIBE, AND THE NANSEMOND 
                                 TRIBE

                               __________

                            OCTOBER 9, 2002
                             WASHINGTON, DC



84-575              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON INDIAN AFFAIRS

                   DANIEL K. INOUYE, Hawaii, Chairman

            BEN NIGHTHORSE CAMPBELL, Colorado, Vice Chairman

KENT CONRAD, North Dakota            FRANK MURKOWSKI, Alaska
HARRY REID, Nevada                   JOHN McCAIN, Arizona,
DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
PAUL WELLSTONE, Minnesota            CRAIG THOMAS, Wyoming
BYRON L. DORGAN, North Dakota        ORRIN G. HATCH, Utah
TIM JOHNSON, South Dakota            JAMES M. INHOFE, Oklahoma
MARIA CANTWELL, Washington

        Patricia M. Zell, Majority Staff Director/Chief Counsel

         Paul Moorehead, Minority Staff Director/Chief Counsel

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page
S. 2694, text of.................................................     2
Statements:
    Adams, Ken, chief, Upper Mattaponi Indian Tribe Indian Tribe 
      of Virginia................................................    71
    Adkins, Stephen R., chief, Chickahominy Indian Tribe of 
      Virginia...................................................    76
    Allen, Hon. George, U.S. Senator from Virginia...............    54
    Barton, Jonathan M., Virginia Council of Churches............    72
    Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado, 
      vice chairman, Committee on Indian Affairs.................     1
    Fleming, Lee, branch chief, Branch of Acknowledgment and 
      Research, Department of the Interior.......................    61
    Inouye, Hon. Daniel K., U.S. Senator from Hawaii, chairman, 
      Committee on Indian Affairs................................    53
    Moretti-Langholtz, Danielle, Department of Anthropology, 
      College of William and Mary................................    74
    Roundtree, Helen, Professor Emeritus of Anthropology, Old 
      Dominion University........................................    82
    Smith, Michael R., Director, Tribal Services, BIA, Department 
      of the Interior............................................    61
    Warner, Hon. John, U.S. Senator from Virginia................    58

                                Appendix

Prepared statements:
    Adams, Ken...................................................    89
    Barton, Jonathan M. (with attachments).......................    93
    Moran, Hon. James P., U.S. Representative from Virginia......    90
    Moretti-Langholtz, Danielle (with attachments)...............   111
    Smith, Michael R.............................................    91

 
 THOMASINA E. JORDAN INDIAN TRIBES OF VIRGINIA FEDERAL RECOGNITION ACT

                              ----------                              


                       WEDNESDAY, OCTOBER 9, 2002


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m. in 
room 485, Russell Senate Office Building, Hon. Ben Nighthorse 
Campbell (vice chairman of the committee) presiding.
    Present: Senators Campbell and Inouye.

 STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, U.S. SENATOR FROM 
      COLORADO, VICE CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    Senator Campbell. The Senate Committee on Indian Affairs 
will be in session. This morning we will be taking testimony on 
S. 2694, the Thomasina Jordan Indian Tribes of Virginia Federal 
Recognition Act of 2002.
    [Text of S. 2694 follows:]
  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
  
    Senator Campbell. I see Senator Allen is here. We were just 
doing an introductory statement. You are welcome to join us at 
the dais. Senator Inouye has informed me that he is going to 
have to leave early, so before I make my opening statement, I 
would like to call on the Chairman, if he would like to say a 
few words before he leaves.

 STATEMENT OF HON. DANIEL K. INOUYE, U.S. SENATOR FROM HAWAII, 
             CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    The Chairman. I thank the Vice Chairman very much. I have 
to leave shortly for a conference of the Department of Defense 
Appropriations Bill; but I wanted to be here to welcome our 
colleagues from the House, Mr. Moran, and the Virginia 
Delegation of the Senate.
    I want to commend all of you for your support of the bill 
that is before the committee today. I wish to advise all of you 
that I have read the statements, and I believe that you make a 
most compelling case for the Virginia tribes that your bill 
seeks to address.
    I am particularly grateful that you have identified and 
appreciate the difference between Federal recognition and other 
matters for which there are separate processes and distinct 
thresholds that must be met, such as the taking of land in 
trust and the conduct of gaming activities.
    The prepared statement of our colleague from the House, 
Congressman Moran, details the sad and tragic history of the 
Virginia tribes; and ladies and gentlemen, I want to assure you 
that this committee will work with you and the Virginia tribes 
to develop a new chapter in our history books, one of which we 
can all be proud.
    With that, Mr. Chairman, I thank you very much, and I 
regret I must leave.
    Senator Campbell. Thank you, Mr. Chairman.
    This bill was introduced on June 27, 2002 by Senator Allen, 
for himself and Senator Warner. We have the pleasure of having 
Senator Allen here. I understand Senator Warner is on his way, 
but Congressman Moran is also on the Floor voting and may not 
be here.
    This bill would provide legislative recognition to the six 
Indian Groups that are located in the Commonwealth of Virginia. 
The ancestors of the tribes in Virginia were among the first 
Native peoples of the Americas to encounter Europeans when the 
latter arrived in the early 1600s, and we are very familiar 
with those stories.
    The Virginia tribes were recognized and dealt with by the 
Crown of England as sovereign entities with whom treaties were 
struck. The six groups seeking Federal acknowledgment are 
currently recognized as Indian tribes by the Commonwealth of 
Virginia and England as well.
    I am told by the staff that while he was Governor, Senator 
Allen took part in an annual treaty-honoring ceremony with the 
Virginia tribes, that took place at Thanksgiving at the 
Governor's home in Richmond. I commend him for doing that.
    In February 1999, both the Virginia House of Delegates and 
the Virginia Senate passed H.J. Res. 754, urging the U.S. 
Congress to grant historic Congressional Federal recognition of 
the eight tribes recognized by the State of Virginia.
    The bill before us would do just that, but would exempt the 
Mattaponi and the Pamunkey, which have elected not to take part 
in this legislation. When he was the Governor of Virginia, 
Senator Allen called for the tribes to be recognized.
    As both Senators know, I have generally been opposed to 
legislative recognition as a substitute for the Federal 
acknowledgment process, except in extenuating circumstances; 
and I am sure we may hear some of those today.
    Nonetheless, I understand the frustration of petitioning 
groups. Some have waited generations to have their petition 
acted on. These Virginia tribes have submitted petitions for 
Federal acknowledgment to the Branch of Acknowledge and 
Research, called the BAR, and have attempted for some years to 
obtain legislative recognition; but to date, have been 
unsuccessful.
    In light of the upcoming 400th anniversary of the 
foundation of the Jamestown Colony in 1607, the Commonwealth 
understandably wants to fully include the Virginia tribes in 
the celebrations and, in fact, supports the tribes' bid for the 
Federal acknowledgment.
    I look forward to hearing from our colleagues and our 
witnesses. With that, I would ask Senator Allen if he has some 
comments that he would like to make before we hear from the 
witnesses.

   STATEMENT OF HON. GEORGE ALLEN, U.S. SENATOR FROM VIRGINIA

    Senator Allen. Yes; I would, Mr. Chairman. First and 
foremost, I want to thank you, Senator Campbell, for your 
leadership, your statement and understanding, as well as that 
of the chairman, Senator Inouye, for having this hearing on 
such short notice. I recognize that there are many issues 
arising, but this is something that is very important to these 
six Virginia Indian tribes.
    I think that the views that I will be expressing will be 
amplified by those of Senator Warner, who also joins me in this 
effort. Virginians are unified.
    I respectfully have asked this committee to begin the 
process of Federal recognition for the Chickahominy, the 
Eastern Chickahominy, the Upper Mattaponi, the Rappahannock, 
the Monacan, and the Nansemond Tribes, by voting in favor of 
this measure, which we call the Thomasina Jordan Indian Tribes 
of Virginia Federal Recognition Act of 2002.
    I have introduced this legislation with my colleague, 
Senator Warner, to provide long overdue recognized status for a 
group of Americans that have been part of this country's 
history from its inception; when the English settlers came into 
Virginia.
    The six tribes that are seeking Federal recognition have 
suffered humiliation and indignities that have gone largely 
unnoticed by most Americans.
    Many of these injustices were not a result of any action 
the Virginia Indians undertook. They were rather due to 
Government policies that sought to eliminate their culture and 
heritage. I believe, because of these facts, the circumstances 
of their situation warrants Congressional motion for Federal 
recognition.
    I can understand the concern that my colleagues express 
over granting Federal recognition without the investigative 
processes used by the Department of the Interior. However, if 
one closely examines the history of these Virginia Indians, 
they will see why this legislation has been introduced, and why 
my colleagues, Congresswoman Joanne Davis and Congressman Jim 
Moran, continue to push for recognition on the House side.
    The history of these six tribes begins well before the 
first Europeans landed on this continent. History has shown 
their continuous inhabitance of Virginia.
    Through the last 400 years, they have undergone great 
hardship. However, many have worked to maintain their 
traditions and their heritage, through those difficult 
centuries.
    To put the long history of the Virginia Indians in context, 
while many frederally-recognized tribes have signed agreements 
with the U.S. Government, the Virginia Indian tribes hold 
treaties with the King of England, including a treaty in 1677, 
between the tribes and Charles II.
    Indeed, the ceremony that Senator Campbell mentioned, where 
there is a tribute paid, is a treaty that goes way back before 
our succession and independence from Britain, where the tribes 
were to pay taxes to the Crown Colony of 20 beaver pelts at the 
going of the geese. That is a continuation of that heritage and 
that treaty, again, that precedes even our independence from 
Britain.
    Like the plight of many Indian tribes across America during 
the last four centuries, the Virginia tribes were continually 
moved off their land, and many assimilated into U.S. society. 
Even then, the Indians of Virginia were not extended the same 
rights offered to U.S. citizens. The years of racial 
discrimination and coercive policies took a tremendous toll on 
the population of Virginia Indians.
    During the 20th Century, at the turn of the 20th Century, 
members of these six tribes suffered even more injustice. New 
state mandates forced Virginia Indians to renounce their Indian 
names and heritage.
    The passing of the Racial Integrity Act of 1924 began a 
dark time in the history of the Commonwealth of Virginia. This 
measure, which was enforced by a state official, the Registrar 
of the Bureau of Vital Statistics, a man named Walker Plecker, 
sought to destroy all records of the Virginia Indians, and 
recognize them as ``colored.''
    People were threatened with imprisonment for noting 
``Indian'' on their birth certificate. Mothers were not allowed 
to take their newborn children home, if they were given an 
Indian name. This policy, along with the over-zealous 
enforcement by Dr. Plecker, has left many Virginia Indians 
searching for their true identity.
    I am going to incorporate, if I may, into the record, an 
article by respected journalist, Peter Harden, who did research 
on this in a comprehensive article that appeared on March 5, 
2000, in the Richmond Times Dispatch. It shows a good research 
into this matter, and I would like it in the record.
    The point is, the Racial Integrity Act left the records of 
thousands of Virginia Indians inaccurate, or deliberately 
misleading, until 1997. As Governor that year, we signed into 
law legislation that directed state agencies to correct all 
State records related to Virginia Indians, reclassifying them 
as ``American Indian,'' and not colored.
    As Governor my administration championed this initiative, 
after learning of the pain and the concern of this racist 
policy, and how it inflicted that pain on many Virginia 
citizens.
    I was also briefed on the problems that many Virginia 
Indians experience when attempting to even trace back their 
ancestry, or have the records of their children or their 
deceased family members corrected.
    So to combat those injustices, we ensured that any American 
Indian, whose certified copy of a birth record contains an 
incorrect racial designation, were able to obtain a corrected 
birth certificate, without paying a fee.
    It is bad enough what was done in the past; but to make a 
citizen have to pay a fee, because of a State policy that 
forces racial discrimination was clearly wrong, so we made sure 
there were no costs in that regard.
    Now because of the arrogant, manipulating policies of the 
Virginia Racial Integrity Act, the Virginia Tribes have had a 
difficult time collecting and even substantiating official 
documents necessary for Federal recognition.
    Through no fault of their own, the records they need to 
meet the stringent and difficult requirements for Federal 
recognition are simply not available, and they are trying to 
work through it.
    I fear that unless my colleagues take action legislatively, 
these six tribes will be faulted and denied Federal recognition 
for circumstances and discrimination over which they had no 
control
    The Virginia tribes have filed a petition with the 
Department of Interior's Branch of Acknowledgment and 
Recognition. However, I believe Congressional action is the 
appropriate path for Federal recognition.
    The six Indian tribes represented here today have faced 
discrimination and attacks on their culture that are unheard of 
in most regions and states of the United States.
    The Federal recognition brings numerous benefits to 
Virginia Indians, including access to education assistance, 
housing assistance, and health care services, which are 
available to most American Indians.
    The education grants, in particular, would provide an 
avenue for Virginia Indians to improve the prospects for 
employment and, hopefully, secure even better jobs, along with 
health benefits in that job.
    The benefits that are offered by Federal recognition would 
not be restitution for the years of institutional racism and 
hostility, but it would provide new opportunities for members 
of the six tribes.
    This recognition, Mr. Chairman, Senator Campbell, and I see 
my colleague from Virginia, Senator Warner is here, is really a 
matter of justice. It is a matter of fair treatment, and it is 
a matter of honor and pride of heritage and family.
    Yes, the health benefits, the education opportunities all 
matter. But it is also a recognition that we, as a Federal 
Government, want to do what is right by these individuals. I am 
not blaming the Federal Government for what Virginia did; but 
nevertheless, this recognition is a long time in coming.
    Now I understand that there are concerns of some members of 
Congress. I share the concern about gambling, which becomes a 
big issue in property claims that relate to federally-
recognized Indian tribes. Many members of Congress place the 
issue of gambling and casinos front and center, when discussing 
Federal recognition of Indian tribes.
    While I do not doubt that some states have experienced 
difficulties as a result of Indian tribes erecting casinos, I 
feel confident that gambling is not the goal of these six 
tribes.
    The tribes have stated that they have no intention of 
seeking casino gambling licenses, and do not currently engage 
in bingo enterprises or operations, even though they have 
permission to do so under Virginia law.
    So to allay any fears, as you go through each and every one 
of these specific tribes, I have put in the legislation, as has 
my colleague and cosponsor, Senator Warner, and it is the same 
as the House version, it makes it very clear that there are 
proper safeguards under Virginia law and the Indian Gaming 
Regulatory Act.
    The concern that Federal recognition will result in 
gambling or casino problems in Virginia have been sufficiently 
addressed. Only if Virginia somehow would allow casino gambling 
in the state would Virginia Indians be able to do so.
    So the point is, Virginia does not allow it. I do not 
foresee it in Virginia, and I cannot imagine the state changing 
those laws to allow it on any Indian lands.
    I have spoken to many of the members of these six tribes, 
and again, they are not seeking this recognition for any 
superficial gain. They, instead, seek recognition to reaffirm 
their place as American Indians, after that right has been 
stripped from them for many decades.
    Mr. Chairman and Senator Campbell, have worked with these 
six tribes over the last 5 years. The circumstances in this 
case are unique and special, and that is why I have introduced 
this legislation with my colleague, Senator Warner.
    I am hopeful that this committee will objectively review 
their situation, the bad history as far as how they have been 
treated, and then make the right decision to move this measure 
to the Floor for approval.
    I thank you again, Senator Campbell, for your care, your 
consideration, in taking time from your busy schedule to have 
this hearing today.
    Senator Campbell. Thank you, Senator; and for those in the 
audience from Virginia, Senator Allen and I served in the House 
together. We were great friends, and have been here in the 
Senate.
    He left us for awhile to do the affairs of state, but we 
are happy to have him back here. We have known for years that 
he has always been a very sensitive, fair-minded person, when 
it comes to issues dealing with American Indians.
    Senator Allen. Just for a matter of record, I have no 
problem with casino gaming for Indian tribes. [Laughter.]
    Senator Campbell. You do not have to sell me. I have always 
supported it, as long as they are within the framework of IGRA.
    I would like now to turn to our senior colleague, Senator 
Warner, also a great friend of mine. Senator Warner, do you 
have a statement before we hear some testimony?

   STATEMENT OF HON. JOHN WARNER, U.S. SENATOR FROM VIRGINIA

    Senator Warner. Well, I thank you, Mr. Chairman.
    Mr. Chairman, you have been a pioneer leader, together with 
Senator Inouye, to protect the rights of our Native Americans, 
and to do it in such a way that you bring the Congress, and 
certainly the Senate, with you on the mission.
    Now we have this initiative by my colleague, and I 
associate myself with your remarks, Senator Allen. They were 
beautifully written. As I listened, they reflected on your 
personal study of years and years and years of the historical 
precedence that justifies this legislation.
    I think it is most appropriate that you, as a former 
Governor of the Commonwealth of Virginia, who in that capacity 
assisted the tribes in various ways during that period of time, 
are the one to take the lead. I am very privileged to be 
associated with you and your cosponsor.
    So I thank you, Mr. Chairman, and I thank you, Senator 
Allen. My remarks are very brief, because I associate myself 
with those remarks given by my colleague.
    On the issue of the gambling, we respect the wishes of your 
State, as you respect the current wishes of our state. This was 
an issue, but I think Senator Allen and others in Congress, who 
we work with very carefully, recognize that the framework of 
Federal laws, now appropriately and properly, are placed in the 
hands of the respective Governors, working with their State 
legislatures, to deal with this issue.
    Because while the tribes and the leadership in Virginia 
today have committed that their intention is not to pursue 
gambling we recognize that what we are about to do will last 
for generations, and we have to consider future generations of 
leaders and their followers, as to what they might do in the 
future.
    But again, as Senator Allen said, we assure the citizens of 
our great State, 7-plus million, that the issue of gambling is 
not implicit in this, and it is well protected by a framework 
of laws.
    So first, I wish to welcome many that I recognize have 
traveled long distances to be here so early today. Usually the 
Senate does not get started this early on major issues, and you 
had a long journey to get up quite early for this morning.
    It reflects the sincerity and depth of your individual and 
collective views on this important piece of legislation. I hope 
those that could not make this trip, and indeed, had there been 
others, I do not know how we would have fit them in, because 
every seat is taken, but I hope that they appreciate your long-
time efforts on behalf of everyone who takes pride in this 
recognition, as Senator Allen said, that is long overdue.
    I would hope, Mr. Chairman, that this matter could be 
addressed in this Congress. Our visitors today are not familiar 
with, I guess you might call it, the eccentricities of what we 
are now experiencing in the Congress. We are about to go out as 
a Congress. The question of a lame duck, of course, is before 
us.
    But could the Chair comment a little bit on how he and 
Chairman Inouye would hope to move this legislation? I think it 
is important that our visitors understand that.
    Senator Campbell. Well, I might, if the Senator would 
yield.
    Senator Warner. Yes.
    Senator Campbell. As you know, we have anything between 2 
more days and 5 or 6 more days. We have literally no idea. The 
leadership has not told us firmly when we are going to out. I 
guess that decision has not been made.
    It is my understanding that there was a hearing already on 
the House side on this bill, that Congressman Hansen did, about 
3 weeks ago. I have not conferred with Senator Inouye or 
Congressman Hansen, either one.
    But just offhand, I would say that the possibility of 
moving this bill through this time around is very, very slim, 
particularly as I understand, that the Administration, through 
the Department of the Interior, is not supporting it. So we 
will just have to hear what they have to say.
    Senator Warner. Well, I would say to the Chair and my 
colleague, that it would be our hope, I assume, to join 
together and introduce this on the opening day of the next 
Congress, and renew our efforts in the coming Congress.
    Because I feel that so many visitors do not understand that 
once a Congress concludes its 2-year life, then all legislation 
that has been introduced and has not been acted upon simply 
dies. That is the phrase that we use.
    But while this may die, it will be revived, am I not 
correct, Senator Allen?
    Senator Allen. Right.
    Senator Warner. We should not give up.
    Senator Campbell. Well, we can establish at least a hearing 
and some dialog.
    Senator Allen. I would say to my colleague, having watched 
this and seeing the progress, and the progress has been slow, 
then justice has been long.
    But the progress here is progress, and this the first time 
there has ever been a hearing, in the history of this august 
body, on recognition of these six tribes of Virginia Indians.
    Senator Warner. Well, most importantly, if you would yield, 
it is the first time that Virginia Senators have put this in.
    Senator Allen. So it is the first time that the bill was 
introduced. That is the first great progress in recognition. 
Second, thanks to Senator Campbell and Chairman Inouye, we are 
having this hearing. This is great progress.
    Things move very slowly here. I am not one of great 
patience; but I have to be patient, and recognize that 
sometimes progress moves slowly. But I think that with the help 
of Senator Campbell, Chairman Inouye, and others, that progress 
is made.
    The fact that we are having this hearing here today, this 
will help bring this issue to the forefront. People will pay 
attention to the facts and the unique circumstances. I am 
hopeful that as we start off the 108 Congress, in the event 
that this cannot get done in the last 2 or 5 days, however many 
are left, we will have a good running start next year.
    Again, I want to thank Senator Campbell, because your 
leadership is absolutely essential. You, as well as Chairman 
Inouye, are ones who people look to for guidance and 
leadership.
    Senator Warner. Many Native American tribes have waited 
hundreds of years for recognition. I think we can assure them, 
Senator Allen, that they will not have to wait much longer for 
this piece of legislation.
    Senator Campbell. I might tell both Senators that, as you 
probably know, the appropriations process for Interior, which 
provides all the money for Indian tribes, is pretty well 
through for next year now. So it is a matter of justice for 
you, but it is also going to be a matter of finances for the 
Bureau.
    How many people total, in the six tribes, are we talking 
about?
    Senator Allen. It is however many applied. Maybe one of our 
witnesses can answer that.
    Senator Campbell. Well, I can ask them.
    Senator Allen. It is in the nature of thousands. It is not 
tens of thousands. It would be a few thousand.
    Senator Warner. I think it would be helpful, the chief says 
was 2,700.
    Senator Campbell. Okay, the reason I asked is because some 
groups that have come before the committee have as many as, as 
I understand it, 40,000 or 45,000 members. There was a group 
in, last week, in fact, testifying on a different issue, that 
had a total of 12 members.
    Well, let me tell you, there is a big difference, when you 
talk about providing services, between 45,000 and 12 people. So 
that is the other thing that we are going to have to consider.
    Senator Allen. In the entire Commonwealth of Virginia, and 
somebody can correct me if I am wrong, but I believe there are 
about 26,000 American Indians of all different tribes, in the 
whole Commonwealth of Virginia.
    There are two other tribes, the Mattaponi and the Pamunkey, 
that you mentioned, that do have their own reservations. They 
are State recognized and are not seeking this Federal 
recognition.
    Senator Campbell. May I ask why?
    Senator Allen. Maybe they feel they have sufficient 
recognition, in that they actually have their two reservations 
and their own lands. These other tribes do not have those.
    Senator Campbell. Well, let us go ahead and get started. We 
will include Congressman Moran's testimony in the record.
    [Prepared statement of Mr. Moran appears in appendix.]
    Campbell. I would like to go ahead and start with Mr. 
Michael Smith, the Director of Tribal Services from the Bureau 
of Indian Affairs.
    Mr. Smith, if you would just go ahead and come to the table 
there, and if you have anybody that is going to testify with 
you or speak in support, they are welcome to come, too. Your 
complete testimony will be included in the record. If there is 
anything you would like to abbreviate, please feel free to do 
so.

  STATEMENT OF MICHAEL R. SMITH, DIRECTOR OF TRIBAL SERVICES, 
     BUREAU OF INDIAN AFFAIRS, DEPARTMENT OF THE INTERIOR, 
  ACCOMPANIED BY LEE FLEMING, BRANCH CHIEF FOR THE BRANCH OF 
                  ACKNOWLEDGMENT AND RESEARCH

    Mr. Smith. Thank you, Mr. Chairman, it is my honor and 
privilege to appear before you again. Good morning, my name is 
Mike Smith. I am the director for the Office of Tribal Services 
within the Bureau of Indian Affairs at the Department of the 
Interior.
    I am here today to provide the Administration's position of 
opposition to S. 2694, a bill to extend Federal recognition to 
the Chickahominy Tribe, the Chickahominy Indian Tribe--Eastern 
Division, the Upper Mattaponi Tribe, the Rappahannock Tribe, 
Inc., the Monacan Tribe, and the Nansemond Tribe.
    Under 25 CFR Part 83, groups seeking Federal acknowledgment 
as Indian tribes are reviewed in a thorough and objective 
manner. Each petitioning group must demonstrate that they meet 
all the seven mandatory criteria established in these Federal 
regulations.
    The seven mandatory criteria are that a petitioner: [1] 
demonstrates that it has been identified as an American Indian 
entity on a substantially continuous basis since 1900; [2] 
demonstrates that a predominant portion of the petitioning 
group comprises a distinct community that has existed as a 
community from historical times until the present; [3] 
demonstrates that it has maintained political influence or 
authority over its members as an autonomous entity from 
historical times until the present; [4] provides a copy of the 
group's present governing document, including its membership 
criteria.
    In the absence of a written document, the petitioner must 
provide a statement describing in full its membership criteria 
and current governing procedures; [5] demonstrates that its 
membership consists of individuals who descend from a 
historical Indian tribe or from historical Indian tribes, which 
combined and functioned as a single autonomous political 
entity; [6] demonstrates that the membership of the petitioning 
group is composed principally of persons who are not members of 
any acknowledged North American Indian tribe; and [7] 
demonstrates that neither the petitioner nor its members are 
the subject of Congressional legislation that has expressly 
terminated or forbidden the Federal relationship.
    A criterion shall be considered met if the available 
evidence establishes a reasonable likelihood of the validity of 
the facts relating to that criterion. A petitioner must satisfy 
all seven of the mandatory criteria in order for tribal 
existence to be acknowledged.
    All six of these groups who would benefit from enactment of 
S. 2694, have submitted letters of intent and partial 
documentation to petition for Federal acknowledgment. However, 
one of these petitioning groups have submitted completed 
documented petitions demonstrating their ability to meet all 
seven mandatory criteria.
    The Federal acknowledgment regulations provide a uniform 
mechanism to review and consider groups seeking Indian tribal 
status. This legislation, however, allows these groups to 
bypass these standards, allowing them to avoid the scrutiny to 
which other groups have been subjected.
    This concludes my prepared statement. I will be happy to 
answer any questions the committee may have.
    [Prepared statement of Mr. Smith appears in appendix.]
    Senator Campbell. Thank you, Mr. Smith.
    Your testimony was very brief, and dealt with the 
standards, criteria, statistics, processes, and so on. I have 
got a couple of questions, and I am sure Senator Allen does, 
too.
    But let me start by asking you this. If my great 
grandfather was somehow taken by force and stuck in a school 
somewhere and told to cut his hair and stop his language and 
generally forget his tribal culture, and you who are Indians 
know what I am talking about; and time goes on, and 50, 60, 70, 
80, 100 years go by, how in the heck are his descendants going 
to establish all the standards that the Bureau requires?
    How do they establish a process, or how do they have 
documents, when there were not even birth certificates in those 
days? I mean, it was before we had a census. It was before we 
had a lot of things. How do they do that?
    Mr. Smith. Well, I believe our process allows for a number 
of different ways to provide documentation. Of course, one is 
by talking to elders, by providing documentation whenever you 
interview elders or people who would have knowledge about the 
existence of the tribe.
    I know that what you are saying is very true. There are 
many Indian people throughout the country, who have been denied 
the right to practice their religion, or to continue to speak 
their language and practice their traditional and cultural 
activities.
    But we believe there are ways, especially with these 
groups, to provide information that exists in the archives in 
Virginia and in public places, where they can obtain these 
records. We just have not gotten the completed documentation.
    Senator Campbell. Well, I appreciate the need for the BAR 
standards, and I recognize the importance of having whatever 
factual records that can be provided.
    I just wanted to point out that, you know, if there are two 
groups, and one has a 70-year gap in its existence, and there 
not circumstances when one group can be acknowledged, it is 
easy to recognize the other group that has been about to 
document some things; but obviously, not with that gap.
    Let us just take two groups, and if one cannot attribute 
the gap of that time to Government policy, then perhaps that 70 
year gap is a rationale for denying recognition?
    Mr. Smith. Well, here again, we are looking at the seven 
mandatory criteria and the documentation under each criterion. 
There have been, as we recognize in some of the petitions that 
have been forwarded, gaps in the information. The way we deal 
with that, of course, is specific to that particular criterion.
    Senator Campbell. Let me interject another quick question. 
When you ask questions dealing with statistics and criteria and 
standards and all, do you ask potential groups things such as 
their language or their traditional dress or dances, or their 
story of creation, or any of the other things that most Indian 
people are raised knowing?
    Mr. Smith. Yes; Mr. Chairman.
    Senator Campbell. Then if you have a huge gap between when 
they were literally dispossessed, as Senator Allen has 
suggested, how do they establish that recognition?
    I mean, we have got kids on reservations now that have 
lived there their whole live that cannot speak their own 
language, because it is disappearing in many places. How do you 
establish any kind of a language chain with a people that have 
been in the circumstances that we find these tribes in?
    Mr. Smith. Well, again, under the mandatory criterion, and 
we are looking at 83.7, Part E, the opportunity, I guess, for 
the petitioner to provide other information that would fill 
that gap is available under that criterion.
    Senator Campbell. I see.
    Mr. Smith. And I know that there are many Indian people who 
have been disenfranchised, through no fault of their own. We 
are really not talking necessarily about the loss of identity 
of the Indian, but of the tribe.
    Senator Campbell. I see, but without the tribe, it is 
difficult for any of them, as individual Indians, to get any 
kind of Government help. Is that not correct?
    Mr. Smith. Yes, Mr. Chairman; in this particular instance, 
we also feel that the documented instances of discrimination 
against the Virginia tribes would be some type of information 
that we would want to look at, because it identifies them as 
distinct groups.
    Senator Campbell. The Bureau opposes the legislative route, 
and as I mentioned in my statement, I have been very careful 
about it, too.
    Because I think it has really opened up a Pandora's box of 
all kinds of groups; most that are legitimately Indian, but 
clearly some are not, that have applied for recognition; and if 
they can get an understanding, friendly Senator to introduce a 
bill to do a run around the Bureau, sometimes that has 
happened.
    But frankly, the time it takes to get these petitions done 
is just unbelievably long. How long have these tribes been 
waiting? I have heard some tribes are waiting for 20 years.
    Mr. Smith. I think the oldest documented partial petition 
is about 20 years old. Some have waited a lesser time; but yes, 
20 years.
    Senator Campbell. Is it fair to say that some people have 
people have probably died waiting? Is that correct?
    Mr. Smith. Yes, Mr. Chairman; I believe the Upper Mattaponi 
is the oldest petition that we have on file, and the 
Rappahannock.
    Senator Campbell. Well, first of all, let me tell you that 
I really would appreciate it if you and the department would 
work with our staff here on the committee, to try to develop a 
comprehensive bill that would revise the whole process.
    Because I find that this business of waiting that long for 
people who are legitimately Indian, I mean, it is just too 
long. Somehow, we have got to have a better process to move it 
through.
    As you probably know, there was an amendment on the Floor 
this year to put a moratorium on any more tribes going on the 
rolls, until we could figure this all out.
    Senator Inouye and I opposed that and, in fact, we won that 
pretty handily when we took a recorded vote. You probably know 
that, if you watched C-SPAN and the debates on the Floor.
    So I am not supporting putting a moratorium on it; but 
somehow, we have got to have a better process. I would hope the 
Bureau would work with us on that.
    Mr. Smith. I understand, Mr. Chairman.
    Senator Campbell. I understand all six of the tribes that 
are subject to this bill have submitted petitions to the BAR. 
Is that correct?
    Mr. Smith. Yes, Mr. Chairman.
    Senator Campbell. Are any of them ready for what is called 
the technical assistance phase?
    Mr. Smith. I would say yes. I think we are prepared to 
provide technical assistance to all six of the petitioning 
groups.
    What has not happened is, a complete petition would require 
another kind of observation, and that would be a letter 
pointing out any obvious deficiencies in their petition. So 
that would be another step where could provide people 
assistance.
    Senator Campbell. So that would be a letter from the Bureau 
back to them?
    Mr. Smith. Yes.
    Senator Campbell. So if you sent that letter to them, would 
it be fair to say that you could begin that process; and if it 
is, how long does it take to complete it, after they get that 
letter from you?
    Mr. Smith. Well, it really would depend on the petitioning 
group. And, of course, you know what limitation we have on our 
resources.
    Senator Campbell. Yes; and I am sorry to say that much of 
that is our fault. Well, after completion of the technical 
assistance phase, how long would it take the tribes to complete 
the FAP process?
    Mr. Fleming. If I may respond.
    Senator Campbell. Could you provide your name for the 
record, please?
    Mr. Fleming. My name is Lee Fleming, and I am the Branch 
Chief for the Branch of Acknowledgment and Research.
    After a group responds to the technical assistance review, 
then under the regulations, another phase begins, which is 
entitled, active consideration.
    The active consideration is basically a formal review of 
all the documents, and there is a 12 month regulatory timeframe 
for that review.
    I must be honest in saying that before a group is put under 
active consideration, we already have a number of groups that 
are in front of groups now just going to be considered for 
active consideration.
    Senator Campbell. Well, it is mighty complicated. Because I 
have said a number of times on this committee, Indians are the 
only people in America, that I know of, that are required to 
carry a card around to prove they are what they already knew 
they were.
    It is a crazy system, but that is what we find ourselves 
in. It started clear back in the days of giving rations and 
blankets and so on, in the reservation days.
    The year 2007 is a key date for Virginians. It is their 
400th anniversary and the 400th anniversary of the founding of 
the Jamestown Colony. I think it is important to the 
Commonwealth and important to the tribes.
    Can you give the committee any indication that if we did 
not act legislatively, that these petitions would be done by 
that very important date?
    Mr. Smith. I really could not predict that, in all honesty, 
Mr. Chairman. But as I said before, we are prepared to provide 
technical assistance to these groups.
    Senator Campbell. Have any of them asked you, so far, for 
technical assistance?
    Mr. Smith. Not to my knowledge; well, I guess Mr. Fleming 
will answer that.
    Mr. Fleming. Yes; we have had several occasions to visit 
with many of the leaders for technical assistance, and we even 
met, just recently, within the past 2 weeks, with some of the 
leaders.
    Senator Campbell. I understand that the Bureau has some 
concerns with the provisions of this bill that establish 
service areas and reservations for the tribes. In some cases, 
the service areas overlap other areas.
    Should this not be determined by the size of the tribe, the 
number of people? I would assume these six different tribes 
have different numbers.
    Mr. Smith. Well, in general, the service area is identified 
for the tribe, and this really is an approval process that goes 
through the Deputy Commissioner, as far as the Bureau of Indian 
Affairs Services, and it may vary for other agencies.
    Senator Campbell. Do we have tribes in the country that are 
already recognized, that have overlapping service areas?
    Mr. Smith. Yes, Mr. Chairman; once we have identified a 
service area, and we have agreed what the tribe is to that 
service area, if there is overlapping, then it is up to the 
tribe or tribes that are involved to come to some agreement as 
to how their membership will be served, if they are in other 
jurisdictions.
    The other problem that we foresee is that there are other 
eligible Indians that would have to be served by a particular 
tribe, once they contract or compact for those Bureau services.
    Senator Campbell. It appears that some of the reservation 
areas may also be overlapping. Is that a problem with the 
Bureau?
    Mr. Smith. It would not necessarily be a problem, but it 
would be up to those tribes, again, to work out that situation, 
as far as the jurisdiction and provision of services.
    Senator Campbell. I understand the Bureau also has some 
concerns about how the tribes would establish their base 
membership rolls. Staff tells me that the Supreme Court case of 
Santa Clara Pueblo v. Martinez make it clear that the 
membership issues are internal for the tribes to decide 
themselves. So what is the problem with the Bureau determining 
their rolls?
    Mr. Smith. Well, in the submission of their membership, and 
if a particular tribe wanted to establish that list as its base 
roll, then we would at least have a clear idea of who their 
members are, and on what basis they would begin to add 
membership, according to their own criteria.
    What happens in many cases is, we are not exactly sure what 
the base roll is, so we would want to identify a base roll, and 
assure that anyone who meets the criteria for the tribe would 
be allowed some due process in establishment enrollment within 
that tribe.
    Senator Campbell. Well, let me use another tribe that is 
already established, like the Cherokees. I was told a few years 
ago by Chief Mankiller, when she was the chairman of that 
tribe, that they get about 1,400 requests per month for 
enrollment of people that believe that they can document that 
they are Cherokees.
    Well, I do not know what number they actually accept every 
month, but when they do, do you not just accept that as the 
acknowledged roll, when the Cherokees say, these people have 
included are members?
    Mr. Smith. We do, Mr. Chairman, but we also understand the 
criteria by which they evaluate an application for membership.
    Senator Campbell. Would the Bureau's opposition change if 
provisions were made in the bill that would provide a roll for 
the Bureau?
    Mr. Smith. I understand we do have membership lists for the 
petitioners. But I think we would want to take this under 
consideration, before we gave you an exact answer.
    Senator Campbell. But you are talking rolls, and it just 
would seem to me, if the bill was amended to provide the Bureau 
with the ability to assist the tribes, to help establish the 
membership rolls, you might view that a little more favorably.
    Mr. Smith. I believe that would go a long way, Mr. 
Chairman.
    Senator Campbell. The same might be said of their service 
areas; determining the service areas?
    Mr. Smith. Yes, Mr. Chairman.
    Senator Campbell. Well, I would like to yield to my friend 
and colleague, Senator Allen, if he has some questions. But 
thank you very much, Mr. Smith, I appreciate your being here.
    Mr. Smith. Thank you.
    Senator Allen. Thank you, Senator Campbell, and thank you 
for your outstanding questions, many of which I was going to 
propound myself. Obviously, you have done a great deal of 
research into this matter; and in particular, these tribes in 
Virginia.
    Senator Campbell. I have got an outstanding staff.
    Senator Allen. Well, I thank your staff, but I thank you 
also for reading what your staff did.
    Senator Campbell. Do I ever. [Laughter.]
    Senator Allen. That shows a great deal of care and 
important leadership on this matter; and I thank Mr. Smith and 
Mr. Fleming for being here.
    Senator Campbell asked you questions on overlapping service 
areas. I want to make sure your testimony is clear that there 
are other Indian tribes in the United States that have 
overlapping service areas. Is that correct?
    Mr. Smith. Yes, sir.
    Senator Allen. So that, in itself, is not a fatal flaw in 
their application for recognition, is it?
    Mr. Smith. No; it is not. We merely wanted to be clear on 
what jurisdiction each tribe was wanting to establish; and the 
service area, in many cases, is smaller than the jurisdiction, 
as we see it. For one tribe, it is quite large, a 150-mile 
radius, which seems somewhat unreasonable. But these are things 
that can be worked out.
    Senator Allen. I would also ask you, as a matter of law, 
while the Department of Interior and your organization, that 
has a very difficult job, apparently may be under-staffed and 
so forth, by law, Congress can act and give recognition to 
Indian tribes. Is that not correct?
    Mr. Smith. Yes, sir; we recognize that Congress has that 
authority.
    Senator Allen. And has that authority been exercised in the 
last 10 years?
    Mr. Smith. Yes, sir.
    Senator Allen. Now Senator Campbell asked a question, that 
let us assume that we are not able to get this bill passed by 
the Senate and the House in the next week or so. Are there any 
changes that could be made to this legislation that has been 
proffered here, that is the basis of this hearing; any changes 
next year that would get your agency to support that 
legislation? Is that at all possible?
    Mr. Smith. I think, again, we would want to take that under 
advisement. I think we would want to speak to our front office, 
the Assistant Secretary and the Deputy Assistant Secretary, and 
assure that, you know, if we were going to make any 
recommendation the proposed legislation, that this would be 
something that the Administration would support.
    But I think we could surely take a look at the legislation 
and see where we might be able to make some recommendations for 
improvement.
    Senator Allen. Well, I understand your desire to follow the 
chain of command and not make commitments. But I think if the 
Branch of Acknowledgment and Research would have any 
constructive suggestions that could, if nothing else, have you 
not oppose it, that would be helpful, and we will certainly 
work with you on it.
    Mr. Smith. I understand.
    Senator Allen. And I understand your position, as well, 
here. Do you have any knowledge, either you, Mr. Fleming, or 
Mr. Smith, of the Department of the Interior ever supporting 
Congressional action on recognition of an Indian tribe? I know 
Congress has acted on rare circumstances. Do you know if you 
all supported that legislation?
    Mr. Smith. I believe we have supported legislation, in 
particular, when it was restoration of tribes. But we also had 
a tribe, and I believe it was in Michigan, where a Chippewa was 
legislatively recognized, and we supported that legislation, as 
well. That would have been in 1988.
    Senator Allen. It was be great if you would that in 2002 or 
2003, as well. The Chippewa probably already, though, were a 
recognized tribe, and this was just another branch of the 
Chippewa, if you know?
    Mr. Smith. Well, there are many bands of Chippewa.
    Senator Allen. Right.
    Mr. Smith. But this tribe, in particular, was not 
recognized until that legislation passed.
    Senator Allen. For the record, the two other Indian tribes 
in Virginia, which have had long-time recognition by Virginia, 
by the King of England, do support this legislation. So there 
is no opposition from those other tribes.
    And I would ask Mr. Smith, as you were reading through the 
criteria, and Senator Campbell alluded to it in one of his 
questions, when you go through all these requirements and 
recordkeeping, and Senator Campbell alluded to it again and I 
had it in my opening testimony, the Racial Integrity Act of 
1929, in Virginia, do you recognize how devastating that was 
for the identity of individuals, when you are trying to have a 
continuity of Heritage and culture, that mothers and fathers 
could not even name their children whatever the Indian name 
might be? If they did, they would not let them take them home 
from the hospital.
    The fact that they were not even recognized as Indians, but 
because of the Racial Integrity Laws, these oppressive laws had 
them as another race. That action, in 1924, that was continued 
on for decades, made it very difficult for someone to identify 
who was actually of that tribe, much less even an Indian of any 
tribe.
    That sort of imposition of Government, and the 
stigmatizing, and the wrongful action makes it very difficult, 
and it is just remarkable that there is even this interest now 
in this long-overdue recognize.
    Do you recognize how difficult that is to maintain a 
culture, a heritage, your family bloodlines, as well as the 
cost and the difficulty of having to hire genealogists, 
historians, anthropologists, to ensure proper documentation 
requirements? Do you recognize how very difficult that is, in 
these particular tribes' circumstances in Virginia?
    It is not because of the Federal Government, but because on 
the onerous, awful actions of the State Government, decades 
ago; and it lasted for generations.
    Mr. Smith. Yes, Senator Allen; I agree with that you are 
saying and I understand what your saying. This has happened in 
other parts of the country, as well. There is a dark history in 
many states. I do not think we would want to get into an 
argument about whether or not there were historical tribes in 
Virginia. We know there were.
    We want to assure you though, that the Indian people, and 
we know there are Indian people in Virginia, are the tribes 
that they say they are. That is the documentation, the 
analysis, the evaluation that we have to go through.
    Some of the things you are saying, I personally have been 
the brunt of some of these kinds of things, the discrimination 
in growing up and now being allowed to practice my heritage, my 
culture, my language, my tradition. I know what you are saying, 
sir.
    Senator Allen. Well, Mr. Chairman, Senator Campbell, I do 
want to work with you on this. I realize that you have a very 
difficult job. Your role and your duty, when you take your job, 
is to uphold the laws and the institutional aspects of your 
department and your Bureaus.
    I want to make sure that there is justice. I do not blame 
you. Some things are bureaucratic and very difficult. Some have 
an easier situation to meet those requirements. Others, because 
of the circumstances, just as a matter of equity, make it very 
difficult for them to do so.
    I am going to try and work as hard as I can, and I know I 
speak for Senator Warner, as well, and Congressman Moran and 
Congresswoman Davis, that we think this is a matter of justice 
and a matter of honor.
    Again, when you determine the number of people who are 
actually involved here, it is a few thousand. There may be 
others meeting their criteria. It may get up to 4,000.
    This is something that a great country can do. I aim to 
keep working with you for these six tribes in Virginia, and I 
thank you.
    Senator Campbell. In the Bureau's defense, I might tell my 
friend from Virginia that these problems, I think, started 
clear back with the Dawes Act, or maybe before, when the first 
rolls were established.
    Because we know for a fact that there were many non-Indians 
that were put on the Indian rolls and, therefore, legally 
became Indians when they were not Indian by blood. Some of that 
was driven by the opportunity to get in on something that might 
be free from the Federal Government.
    So since that time, they have been very, very careful, and 
I understand that. Because it was not at all difficult in those 
days, in fact, just to get somebody to go down to the Bureau 
and tell them that they were your cousin.
    They could have blonde hair and blue eyes or whatever, you 
know, and they could go down there if they said they were your 
cousin and they were enrolled, you could be put on the roll, in 
some cases, in those days. It was very easy.
    Through the years, the department has tried to make it much 
more detailed, and justifiably so. But the pendulum can swing 
from too far to the other side, too, and that is my concern.
    Senator Allen. Well, thank you, Senator Campbell; that is a 
very good point. The fact that the Virginia Indians have been 
in contact, other than the Indians that are, say, in New Mexico 
and Arizona, who had contact with the Spanish; but the Indians 
in Virginia, other than those who have had contact in American 
with the Spanish, or in some cases, the French, the ones in 
Virginia, with the first permanent English settlement being in 
Jamestown in 1607, have had the longest interaction or contact 
with Europeans.
    We all do know that eventually many Indians did assimilate 
into society; and so naturally, the bloodlines are going to be 
diluted, to so speak, to some extent.
    But again, as Senator Campbell said, this why this is 
particularly pressing, for all Virginians; not just Virginia 
Indians, or those who may be one-half Virginia Indian, and one-
half French, one-half Dutch, one-half Italian, or whatever 
fractions. I do not mean to have it doubled or tripled.
    But regardless, in 2007, there is going to be a major 
celebration in recognition of the founding of Jamestown. 
Virginia Indians have a very prominent role in that. Pocahontas 
and the Chief Powhatan, all of those are so much a part of the 
founding of Virginia, and the founding, really, of the cradle 
of democracy for America.
    It is going to be very important that this recognition is 
for all Virginians, with a showcasing of our Commonwealth and 
where we started and where we have come. Of course, the Indian 
heritage is much longer than 400 years, and that is part of the 
original inhabitance of Virginia.
    So that is another reason that all Virginians are so 
unified, no matter what their ethnic or racial background, 
unified in the recognition of these tribes, as indicated by the 
House and Senate General Assembly resolutions in support of 
this recognition. Thank you.
    Senator Campbell. I have no further questions, but I may 
submit some to be answered in writing. Senator Inouye may also 
have some questions that he may submit, if you could get back 
to us on those.
    Mr. Smith. Yes, Mr. Chairman.
    Senator Campbell. All right, thank you.
    Mr. Smith. Mr. Chairman, could I just say one other thing?
    Senator Campbell. Please do.
    Mr. Smith. The issue you raised earlier, with regard to who 
the members might be of a particular group, is a primary reason 
that we would want the membership of these groups established 
and defined, prior to the passage of the bill.
    Because in most cases, there is a provision to do this 
after the tribes are recognized. So we want to have a basis for 
that base roll, and that is primarily the reason that we want 
them to identify their membership ahead of time.
    Senator Campbell. Yes; well, it is another subject for 
another day. But you know that I have said a number of times, I 
think the whole roll system is totally screwed up, very 
frankly.
    When we did the hearings some years ago, on trying to 
revise the Indian Arts and Crafts Act, to determine what is 
actually made by an Indian artist, boy, we had some of the most 
unusual testimony that convoluted the whole question more than 
you could have ever imagined.
    We had one guy that was eight-eighths Indian. He was 100 
percent Indian. But because he was eight-eighths, and every 
tribe he identified with had a blood quantum of one-fourth or 
more, he could not get on anybody's roll. So by law, he could 
not be on anybody's tribe, but he was Indian.
    We had another one testify that because of the way the Hopi 
rolls are set up, you can only be enrolled if the Indian 
lineage comes from your mother's side and not your father's 
side.
    So you could be Indian and something else, but if your mom 
was Indian, you could be enrolled as a Hopi; and if your dad 
was the Hopi, you could not be enrolled. I mean, it is just one 
big mess, and we deal with it all the time here.
    We will now move on to the next panel, which will be the 
Honorable Ken Adams, the Chief of the Upper Mattaponi Indian 
Tribe of King William; the Reverend Jonathan Barton of the 
Virginia Council of Churches; and Dr. Danielle Moretti-
Langholtz, Department of Anthropology, from the College of 
William and Mary.
    As I mentioned with the first panel testifying, if you 
would like to submit all of your testimony for the record, that 
will be included; and if you would like to abbreviate or depart 
from your written testimony, that will be fine.
    Chief Adams, please proceed.

  STATEMENT OF KEN ADAMS, CHIEF, UPPER MATTAPONI INDIAN TRIBE 
    INDIAN TRIBE OF VIRGINIA, ACCOMPANIED BY CHIEF ADKINS, 
 CHICKHOMINY TRIBE; CHIEF BRADBY, EASTERN CHICKAHOMINY TRIBE; 
CHIEF BRANHAM, MONACAN TRIBE; CHIEF BASS, NANSEMOND TRIBE; AND 
              CHIEF RICHARDSON, RAPPAHANNOCK TRIBE

    Mr. Adams. Good morning, Mr. Chairman. I am Kenneth Adams, 
Chief of the Upper Mattaponi Indian Tribe. I ask your 
permission to revise and extend my comments.
    Senator Campbell. Without objection, your complete comments 
will be included in the record, both written and spoken.
    Mr. Adams. With me today are Chief Adkins, Chickahominy; 
Chief Bradby, Eastern Chickahominy; Chief Branham, Monacan; 
Chief Bass, Nansemond; and Chief Richardson, Rappahannock.
    Senator Campbell. Where up are they; if they could raise 
their hands, so I could just pick them out?
    [Show of hands.]
    Senator Campbell. Okay, they are right in the front row, 
thank you.
    Mr. Adams. We are the proud descendants of the keepers of 
this great land when the English colonists arrived in 1607. The 
Peace Treaty of 1677 established the governing authority of the 
Pamunkey Queen and the Monacan Chief over our ancestors. We are 
the direct descendants of those colonial tribes, which occupied 
over 200 villages and towns.
    Today, these nations have come together to ask the Congress 
of these United States to acknowledge our one-on-one 
relationship with the Government of this Nation.
    Chief Justice John Marshall, in 1832 stated:

    The Constitution, by declaring those treaties already made, 
as well as those to be made, the Supreme Law of the Land, has 
adopted and sanctioned the previous treaties made with Indian 
Nations.

    Each of these great chiefs carry in their hearts many 
burdens of our people. I cannot express for them the sorrows 
they have endured. But I can express to you a sample of what we 
have all endured.
    When I was a child growing up in King William County, 
Virginia, high school education for Indians was almost nil. 
Even before I entered grade school, my older brothers and 
sisters were being sent off to Oklahoma and Michigan to 
complete high school. I was the first Indian to graduate from 
King William High School in 1965.
    Myself in 1967, and my brother in 1968, served in Vietnam. 
Shortly afterwards, I went to visit my brother. It was like 
walking into the house of a stranger.
    It was not because of any experiences in Vietnam. It was 
because of the policies of the State of Virginia. It was the 
policy that forced him from home in order to seek a high school 
education. What was his response to that policy? His response 
was to put his life on the line for the United States of 
America.
    I can surely tell you today, in these individual tribes, 
there are many more stores like this one. I can say, with 100 
percent certainty, when it comes to defending this homeland, 
Virginia Indians have split their blood.
    You might ask us, why do you come now? We have an answer. 
For almost 400 years, Virginia attempted to diminish our 
presence. After 1700, we were pushed onto increasingly smaller 
pieces of land, and by the mid-1900's, Virginia was attempting 
to document us out of existence.
    The fight to maintain our identity was a struggle. Our 
mothers and fathers fought well, but they lacked education and 
resources. They had been told on several occasions, no help 
from the Federal Government was available.
    In 1946, one of the chiefs attempted to obtain high school 
educational resources through the Office of Indian Affairs. The 
only help offered was in the form of education at a Federal 
boarding school. Nothing was available in Virginia; 2 years 
earlier, that same chief had lost a grandson in the 
Philippines.
    If the State Government was attempting to deny our 
existence, and the Federal Government provided little 
assistance, where could these people possibly go? Who could 
they possibly turn to? That is the main reason that it has 
taken us to long to get here.
    Virginia has recognized its errors. Along with S. 2694, 
sponsored by Senators Allen and Warner, Virginia 
Representatives Moran and Davis have introduced H.R. 2345, 
granting Federal acknowledgment to these six tribes.
    In 1999, the Virginia General Assembly passed a resolution 
with overwhelming support, asking for Congressional recognition 
of these tribes. King William County, home of the Upper 
Mattaponi, has passed a unanimous resolution in favor of 
Federal acknowledgment.
    We have the support of the majority of the Virginia 
Congressmen and women. As you can see, we have overwhelming 
support from the Commonwealth of Virginia.
    Now the U.S. Congress has the opportunity to make a 
historical change, a positive change that would bring honor to 
you, as well as honor to ourselves. We ask you to make the 
right decision, and support this bill for Federal 
acknowledgment of Virginia Indians.
    [Prepared statement of Mr. Adams appears in appendix.]
    Senator Campbell. Thank you, Chief; we will have some 
questions for you in just 1 moment. Let us go on to Reverend 
Barton.

 STATEMENT OF REVEREND JONATHAN M. BARTON, VIRGINIA COUNCIL OF 
                            CHURCHES

    Mr. Barton. Good morning, Mr. Chairman and members of the 
Senate Committee on Indian Affairs. My name is Jonathan Barton, 
and I am the general minister for the Virginia Council of 
Churches. I would like to thank you for the opportunity today 
to speak. I would ask your permission to revise and extend my 
comments.
    Senator Campbell. So granted.
    Mr. Barton. I would also like to express my deep 
appreciation to Senator George Allen for his continued 
leadership in this, and his efforts in sponsorship of this 
bill; and to Senator John Warner for his cosponsorship; and to 
all the other members of the Virginia Delegation, who have come 
to support this effort.
    To the members of the six tribes gathered today, you do 
indeed continue to honor the Virginia Council of Churches 
greatly by this invitation to walk with you, as you seek 
Federal recognition and acknowledgment. We stand with you today 
in support of the Thomasina E. Jordan Indian Tribes of Virginia 
Federal Recognition Act of 2002, S. 2694.
    Two weeks ago, before the House Committee on Resources, I 
made a public apology for any acts of injustice that the 
Council may have been complicit or complacent in during the 
past. This apology was sincere then; it is sincere today; and 
it expresses a hope for our continued walk into the future 
together.
    The Virginia Council of Churches is the combined effort of 
34 governing bodies of 16 different communions in the 
Commonwealth of Virginia. A list of our member denominations 
has been appended with my written comments. I also have 
appended letters from various religious leaders across the 
Commonwealth, urging the support for this bill. Together, we 
include one out of every five Virginians.
    During our 58 year history, we have always stood for 
fairness, justice, and dignity of all people. We are one of the 
first fully integrated bodies in the Commonwealth of Virginia, 
and we have been for our entire history.
    We stand here today in that faith, and we are grounded in 
our history and our values. The churches have a relationship 
with these tribes, and have had ever since our first European 
ancestors arrived and were welcomed by the ancestors of these 
men and women here today.
    These tribes have developed very close ties with the 
Episcopal Church, the Baptist Church, the United Methodist 
Church, and the Assembly of God. Three of our outstanding 
religious leader executives in the Commonwealth of Virginia are 
Native American: The Reverend Dr. Wasena Wright, the Right 
Reverend Carol Joy Gallagher, and the Reverend Dr. Cessar 
Scott.
    Alexander Hamilton stated in 1775:

    The sacred rights of mankind are not to be rummaged for 
among old parchments or musty records. They are written, as 
with a sunbeam in the whole of the volume of human nature, by 
the hand of the divinity itself, and can never be erased or 
obscured by mortal power.

    What we are addressing here today are sacred rights; the 
sacred rights of these six tribes. Our history has not always 
been marked by peace or by understanding. Treaties, indeed, 
have been broken and land has been taken. There is suspicion 
and mistrust still on both sides.
    But there is perhaps no deeper wound you can inflict on a 
person than to rob them of their identity; to relegate them to 
a box marked ``other''; to proclaim, as we have done in 
Virginia during the time of Mr. Plecker, that you do not exist.
    Those who bear the legacy of their forefather, the first 
inhabitants of this great land, have suffered much in the way 
of discrimination, bigotry and injustice. In the past, they 
have been prevented from employment and attendance in public 
schools. Churches have often sought to fill some of these gaps.
    But even as we have prevented their attendance in our 
classrooms, we have proudly placed their names on our school 
buildings. We have taken their names and we have placed them on 
our roads, on our towns, on our rivers. The discrimination that 
they have suffered has not only erased their identity, but it 
has also robbed them of their voice.
    These tribes have proudly served this Nation, even as this 
Nation has turned its back on them. These tribes are here today 
to humbly ask nothing more than to have their identity 
acknowledged, to be recognized for who they are and the 
contributions that they have made.
    You can make this possible, so that the healing of the deep 
wounds that have been inflicted might finally be realized. Our 
state legislature has spoken. The people of Virginia have 
spoken, and they are behind the unity of the six tribes, as 
they seek this acknowledgment.
    Senator George Allen, you, in introducing this bill in the 
Senate, have said that:

    It is important that we give Federal recognition to these 
proud Virginia tribes, so that they can be honored in the 
manner that they deserve.

    You went on to say that:

    There is absolutely no reason why American Indian tribes in 
Virginia should not share the same benefits that so many Indian 
tribes around the country enjoy.

    God has smiled on these people and called them by name. God 
has blessed them, and God will recognize them, for as long as 
the sky is blue, and even on those days when it should turn 
gray.
    God will be there as long as the grass is green and when 
the grass turns brown. For as long as the water shall flow and 
the cold winter days when it freezes over, God will be with 
them. It is now time for the United States Congress to do the 
same. Thank you, sir.
    [Prepared statement of Mr. Barton appears in appendix.]
    Senator Campbell. Well, before I go on, let me tell you, 
Reverend Barton, that was a very, very nice statement. The 
history of non-Indian religions and traditional Indian people 
has been very rocky in this country, as you probably know.
    There is even a story among Indians that every Indian who 
has been around a reservation has heard. It is, the 
missionaries came to do good, and they did very well.
    It is used by Native Hawaiians, too, which means some of 
them came with ulterior motives. That was to get you to forget 
your history, forget your family, forget your traditions, 
forget everything, and become non-Indians in brown skin.
    It is nice to see that religions are finally recognizing 
the rights and fairness to traditional people. Thank you for 
that statement.
    Dr. Moretti-Langholtz, if you would go on, and then we will 
finish up with Chief Adkins.

    STATEMENT OF DANIELLE MORETTI-LANGHOLTZ, DEPARTMENT OF 
           ANTHROPOLOGY, COLLEGE OF WILLIAM AND MARY

    Ms. Moretti-Langholtz. Thank you, Senator Campbell, Senator 
Allen, members of the committee and guests. I am Dr. Danielle 
Moretti-Langholtz, Coordinator of the American Indian Resource 
Center at the College of William and Mary. Thank you for the 
opportunity to address you on this important issue.
    For the record, scholarly statements have also been 
submitted by Dr. Helen Rountree and Edward Ragan.
    Senator Campbell. Those will be included in the record.
    Ms. Moretti-Langholtz. Thank you, sir.
    The history of Virginia's indigenous population is uniquely 
intertwined with the history and founding of the United States 
of America. Widely known is the story of Chief Powhatan and his 
daughter Pocahontas, and the role they played in assisting the 
first English speaking settlers at Jamestown during the 17th 
century.
    Less widely known is what became of Virginia's indigenous 
population, and their struggle for the survival of their 
culture, communities, and identity, during the intervening 4 
centuries.
    At the time of English colonization, Virginia's coastal 
plain was occupied by a paramount chiefdom of Algonquian-
speaking tribes; and its Piedmont by alliances of Siouan-
speaking tribes.
    There are both archaeological evidence and historical 
documents, such as this document that I would draw your 
attention to, which is this copy of John Smith's 1612 map.
    These documents indicate that Native peoples were sedentary 
horticulturalists, growing corn with highly organized political 
structures, that included male and female chiefs. The current 
Rappahannock chief, G. Anne Richardson, who is with us today, 
is an example of that continuing tradition.
    The rapid English settlement of Virginia resulted in a 
demographic change in favor of the colonists, as the economic 
life of the colony shifted towards growing tobacco. The tribes 
were signatories to 17th century colonial treaties, which 
established reservations for some of the tribes.
    By 1700, the tribes occupied small pieces of the 
traditional homelands, and all but two lost control of the 
reservation lands by the early 1800's. Virginia Indians came 
under increasing pressure to conform outwardly to non-Indian 
society.
    Many Virginia Indians converted to Christianity during the 
period known as the Great Awakening. Over time, Virginia 
enacted increasingly strict codes pertaining to slavery and 
racial identity.
    Virginia Indians developed strategies to survive in this 
racially-hostile climate by withdrawing into close-knit 
communities and maintaining separate tribal identities. 
Historical documentation from this period highlights the 
pressures on Virginia Indians as the state regularly 
manipulated the definitions of Negro, Mullatto, Indian, and 
free persons of color, to maintain white control over non-white 
persons.
    The emergence of the Eugenics Movement in the 20th century 
is arguably the most trying period of all for Virginia Indians. 
The passage of Virginia's Racial Integrity Law in 1924 forced 
all segments of the population to be registered at birth in one 
of two categories: white or colored. The latter category was 
mandated for all non-white persons, regardless of race or 
ethnicity.
    This legislation was engineered by Dr. Walter Plecker, head 
of the Bureau of Vital Statistics in Richmond, and made it 
illegal for individuals to correctly identify themselves as 
Virginia Indians.
    The racial designations on birth records of many Native 
persons were changed from Indian to the generic non-white 
category of colored, without their consent. This experience is 
unique to the Virginia Indian community. The Racial Integrity 
Law remained in effect until its repeal by the U.S. Supreme 
Court in Loving v. Loving.
    Scholars have documented that during these years, Virginia 
Indians maintained their tribal structures, and refused to give 
up their Indian identity.
    Between 1983 and 1989, the Commonwealth of Virginia granted 
State recognition to the six tribes whose leaders are here 
today, thereby acknowledging the tribes' historical importance, 
contributions, and continued presence in the state, since the 
time of the colonial encounter.
    In 1999, the Virginia legislature passed House Joint 
Resolution Number 754, asking the Congress of the United States 
to extend Federal recognition to these tribes.
    The scholarly community represented here supports this 
request, based on the specific criteria for Federal recognition 
and the documented history of these tribes.
    These Indians have maintained a separate identity as 
Indians since the time of European colonization, and their 
shared experienced has forged in them a sense of solidarity.
    Mr. Chairman, they have waited long enough for Federal 
recognition. Please support the extension of Federal 
recognition to these six tribes. As 2007 approaches, it is time 
to set the historical record straight. Thank you.
    [Prepared statement of Ms. Moretti-Langholtz appears in 
appendix.]
    Senator Campbell. Thank you, Doctor; I might tell you just 
a few weeks ago, several of us spent some time in Africa. One 
of the countries we visited was South Africa. We went to Robin 
Island, where Nelson Mandela spent almost 3 decades of his 
life.
    I am struck with the similarity with the Apartheid, that 
happened just a few years ago in Africa. Really, what many 
American Indians went through, it is like an American 
Apartheid, in some cases.
    Ms. Moretti-Langholtz. If I may say, Mr. Chairman, in fact, 
you are absolutely correct. What you are seeing in both 
instances are the effects of the Eugenics Movement that became 
popular, or shall we say, active, in particular areas of the 
world, and also Nazi Germany, unfortunately, to some extent, 
with this legislation, in the Commonwealth of Virginia.
    It is not a good history. I do not think anyone here seeks 
to beat up upon Virginia or the state. But this is a question, 
as I think was really accurately described by Senator Allen. It 
is really not about benefits or getting something. It is about 
setting the historical record straight.
    Senator Campbell. Thank you for your testimony.
    Chief Adkins, I am sorry that your name was not on the 
original list that I got for testimony.
    Mr. Adkins. That is quite all right.
    Senator Campbell. But we would be honored to hear your 
statement.

  STATEMENT OF STEPHEN R. ADKINS, CHIEF, CHICKAHOMINY INDIAN 
                       TRIBE OF VIRGINIA

    Mr. Adkins. Senator Campbell, Senator Allen, staff members, 
I thank you for the opportunity to address you today.
    This moment in time is significant to Virginia Indian 
tribes because it provides a forum for us to bring our unique 
situation to the attention of the legislature of the greatest 
country in the world.
    I come to you today, bringing the spirit and will of our 
forebears. Our presence here, combined with your willingness to 
listen to our story, contrasts sharply with the environment of 
fear and mistrust in which my father and his peers fought to 
preserve and maintain our heritage.
    The environment in which our immediate forebears and our 
ancestors, several generations removed, found themselves was 
fraught with turmoil, anguish, and despair.
    In the early years after European contact, Virginia Indians 
fell victim to disease and superior weapons of death. In 
addition, they were displaced from their ancestral lands. Yet 
even against those circumstances, the Virginia Indians 
prevailed and maintained their heritage.
    Much of the testimony you have heard today has addressed in 
detail some of the points that I previously mentioned. I would 
like to share with you some of the very real and painful 
memories that our people have of our struggle to maintain and 
share our heritage.
    Sadly, I must admit, I do have relatives who chose to live 
their lives as black or white, versus claiming their true 
identity and its attendant hardships.
    However, today, I bear no ill will to those folks, because 
they did what they felt they had to do to survive. I am here 
today to testify that life should be about more than just 
survival. Life should include being able to live and share 
one's heritage with pride and honor.
    My father and his peers lived during the Plecker years, and 
carried those scars to their graves. When I approached them 
regarding our need for state recognition, they pushed back very 
strongly. In unison, they said, ``Let sleeping dogs lie, and do 
not rock the boat.''
    Their fears of reprisal against those folks who had risked 
marrying in Virginia, and whose birth records accurately 
reflected their identity, outweighed their desire to openly 
pursue any form of recognition. Those fears were not unfounded, 
because the threat of fines or jail time was very real to those 
Virginia Indians.
    When you look through family photo albums of my parent's 
generation and those generations preceding them, some photos 
and mementos are conspicuously absent. You will not see 
pictures of students receiving high school or college diplomas. 
You will not see wedding pictures taken at the local church. 
You will not see pictures of high school cheerleaders. You will 
not see pictures of homecoming games or high school proms.
    The reason so many things people take for granted were 
missing in the lives of my ancestors, those memories and family 
treasurers of our forbearers was not one of choice, but one of 
survival.
    To claim your identity was to put you and your family at 
risk. If you were Indian, claiming that identity precluded your 
enrollment in high school or college. There was no place for an 
Indian in a State that recognized only two races: white and 
colored.
    So what did you see when you looked in the aforementioned 
albums or on the living room walls of our forebears? You saw 
pictures of Indian powwows and festivals held on tribal 
grounds. You saw pictures of church socials and homecomings.
    On the walls, you saw pictures of servicemen, certificates 
of baptism, bronze stars, purple hearts, honorable discharge 
certificates; and sometimes, you saw U.S. flags, which were 
presented to those families whose son or daughter lost their 
life in service to this country.
    You saw photos that revealed the tenacious, unflagging will 
of our forebears to maintain their heritage, in spite of the 
undue hardships that the State of Virginia imposed upon them, 
both through legislative action and the bureaucratic actions of 
Walter Plecker.
    As a member of the Charles City County School Board, I was 
made aware of the Title IX Indian Education Program. There were 
several criteria to be met to participate in this program.
    One criterion was state recognition. Pushed by the need to 
allow the Indian students within the country to experience this 
learning environment, several of the younger tribal members 
forged ahead with the recognition process.
    We engaged scholars, historians, and others to research and 
compile data supporting our Indian identity. I remind you, this 
action was contrary to the counsel we had been given by many of 
the elders of our tribe.
    We, the Chickahominy Tribe, advised other Virginia Indian 
tribes of our efforts around state recognition, and the Eastern 
Chickahominy, Upper Mattaponi, and Rappahannock Tribes, joined 
in our effort.
    As you might expect, the elders of those tribes expressed 
fear and concern regarding stirring up all of the old wounds 
and painful memories that they were sure would surface in our 
quest for state recognition.
    The State Legislature heard our case, and granted the 
aforementioned tribes recognition in 1983. In addition, the 
legislature created the Virginia Commission on Indians. Later, 
the Monacan and Nansemond Tribes applied for and were granted 
state recognition.
    The question of why did we wait so long to seek Federal 
recognition is posed to us quite frequently. The recognition 
accorded to the Virginia tribes by the Commonwealth in 1983, 
coupled with the creation of the Virginia Commission on 
Indians, followed by the legislative action of the Allen 
administration, created a climate conducive to the next logical 
step, which was the quest for Federal recognition.
    The cloud hanging over our heads at the Bureau of Vital 
Statistics, where we were written out of existence, posed a 
serious threat to what we perceived as a viable chance at being 
heard at the Federal level.
    With the removal of that obstacle, the vision became more 
focused and, in fact, crystal clear; Federal recognition and 
sovereignty must be sought.
    To be constrained by rules and regulations promulgated by a 
reputed confidant of Hitler was both stifling and dehumanizing. 
However, even from that experience, the Virginia tribes found a 
silver lining. Our trials bound us closer together as members 
of the total Indian population in general, and as members of 
our respective tribes, in particular.
    The treatment that Virginia Indians endured over the years 
caused them to seek strength from each other and live as 
communities. Ironically, that satisfies the criterion for 
administrative Federal recognition, that speaks to 
documentation supporting the fact that Indian people lived as a 
community or a tribe for the last 100 years.
    For example, in the case of the Chickahominy Tribe, we have 
documented minutes from our tribal meetings dating back to 
1901, all history preceding that. In addition, we have in place 
rules of governance, a membership roll, and a constitution.
    These systems were put in place to let succeeding 
generations know their heritage, and to provide accurate 
records to the tribal members, versus the altered documents 
provided by the state. The other Virginia tribes have similar 
systems in place for the same reasons.
    Another question we are asked is, ``Why did you choose 
Congressional recognition, versus administrative recognition?'' 
The answer is two-fold.
    The tribes felt they were denied the option to seek 
administrative Federal recognition because of the non-creation 
and destruction of accurate birth records at the state level. 
When this issue was finally resolved, we took another look at 
where we were, and determined that an oversight at both the 
Federal and State Government levels contributed to our lack of 
recognition.
    The Commonwealth of Virginia, through its legislature, 
heard our call and took corrective action. We felt an appeal to 
the legislative body of the United States of America would be 
both consistent with what we did at the state level, and would 
be the right way to make our case for Federal recognition.
    In addition, we feel our approach to Federal recognition 
has the blessing of both the opinion of the late Chief Justice 
John Marshall and the Constitution of the United States of 
America.
    I thank God I have lived long enough to see a racial 
designation for Indian on college application forms in 
Virginia. This was not the case when I served on the board of a 
local community college in the 1990s, or when I took a computer 
class at one of the local community colleges.
    I am thankful to be a part of this hearing today. I regret 
our forebears did not live to see the action that the 
Commonwealth of Virginia took to correct the records at the 
Bureau of Vital Statistics during Governor Allen's 
administration.
    I wish they could see what is unfolding here today. 
However, I know as surely as I am sitting here today, that the 
Almighty Father has welcomed my people home and duly recognized 
them as the Indian people he created.
    Today, I humbly ask you to do likewise; welcome us back to 
our Native Land, recognize us as indigenous Virginia Indian 
Tribes, and restore our identities as Sovereign Nations. Thank 
you.
    Senator Campbell. Thank you, your comments were well 
received, Chief Adkins.
    Let me ask you, you are familiar with the word ``pass,'' as 
it was used in my age group? And it was used by both the Indian 
groups and African Americans, years ago. You spoke of 
discrimination and prosecution, and all of the other things 
that people of color faced in those years. Are you familiar 
with that phrase?
    Mr. Adkins. I am very familiar with that. I have relatives 
who passed for white or colored.
    Senator Campbell. For those who do not know what it means, 
it meant that within your own culture and your own relatives, 
you were known to be Indian or African American.
    But on the outside, some people would say they were not 
Indian, or they were not African American. They were something 
else, because they found it would be a little bit easier 
lifestyle. There would not be quite as much discrimination. So 
that word was used. They passed as something else. You are 
familiar with that?
    Mr. Adkins. I am very familiar with that.
    Senator Campbell. I grew up in those days, too.
    Mr. Adkins. And that is what I was alluding to, in that 
comment.
    Senator Campbell. Yes; well, that is why I asked.
    Let me ask you several questions. You both have the title 
of Chief. Is that an elected title within your tribe?
    Mr. Adams. Each tribe has its own way of electing their 
chiefs. I, personally, was elected years ago to be Chief of the 
Upper Mattaponi Indian Tribe.
    Senator Campbell. How do you determine who does the 
electing? Is it done with just an open ballot, or how do you do 
that?
    Mr. Adams. What happens is, we go through a nomination 
process. Once the nomination process is complete and the 
nomination process is over, a couple months later, we have a 
formal election.
    Senator Campbell. And you have tribal councils too, as most 
recognized tribes do?
    Mr. Adams. Yes, sir.
    Senator Campbell. I know that a lot of the tribes who seek 
recognition were literally forced to abandon their traditional 
ways and beliefs.
    In your two tribal groups, Chief Adkins and Adams, do you 
still have some degree of semblance of historic cultural things 
like dance and dress and language and story of creation, and 
things of that nature, that most tribal groups do?
    Mr. Adkins. Yes; we have the traditional dances. We have 
the Woodland Indians' dress. It is not as flashy as some of the 
western tribes, but it is our traditional dress; and we have 
oral history that has been passed down.
    We have our kids, the Chickahominy kids. We are going to 
the tribal center every Saturday, and we would just kind of 
take that time, outside of the normal school hours, to just 
educate them on their ancestry, on what being Chickahominy is 
all about.
    Senator Campbell. Has your language pretty much been lost?
    Mr. Adkins. It is pretty much lost. That, too, was by 
design, as you know.
    Senator Campbell. Yes; by design and by force; I 
understand.
    Two tribes were not included. Do you have any knowledge of 
why they did not want to be included, Chief Adams or Adkins, 
either one?
    Mr. Adams. I believe, sir, that each individual tribe, has 
its own agenda for inclusion or exclusion in certain things 
that they do. I do not believe that I can speak for those 
individual tribes.
    Senator Campbell. Of the eight, I understand two have 
reservations and six do not. Is that correct?
    Mr. Adams. Right, yes, sir.
    Senator Campbell. Are the two that did not want to be 
included the two that do have some reservation ground?
    Mr. Adams. Yes; but I would add they do support our efforts 
and lock step with us.
    Senator Campbell. I would ask both of you, too, what is 
your membership criteria? Some are based on a lineal 
descendancy, and others are based on blood quantum. How is your 
membership decided?
    Mr. Adkins. The Upper Mattaponi is based on lineal 
descendancy, sir.
    Mr. Adams. Mine is blood quantum.
    Senator Campbell. Blood quantum, what is the percentage?
    Mr. Adams. One-fourth.
    Senator Campbell. Would you both be agreeable to having the 
Bureau consult with you in clarifying your membership criteria, 
and in helping you research those who may be eligible for 
membership?
    Mr. Adkins. I would welcome any assistance.
    Mr. Adams. I would welcome that, also.
    I would like to add, too, that there is a gentleman by the 
name of Mitchell Push, who did work with the BIA for several 
years, and I hope I am right about this, and he worked in that 
area. He has actually come to our tribe and addressed us on 
that very issue, to ensure that we do meet the criteria of the 
BIA.
    Senator Campbell. He is no longer in that area now?
    Mr. Adams. He is not working with them now.
    Senator Campbell. Oh, I see.
    Mr. Adams. He has consulted with us.
    Senator Campbell. Okay, and would that also apply to 
consulting with designation of a service area? Would you also 
agree to having the Bureau help you with that?
    Mr. Adams. I do not perceive a problem with that.
    Mr. Adkins. I do not, either. Again, I would consult my 
tribe, before making that decision. But I do not think they 
would register any disapproval.
    Senator Campbell. Thank you, and let me go on to Dr. 
Moretti-Langholtz. Did I pronounce your name right, ma'am?
    Ms. Moretti-Langholtz. Perfectly, sir.
    Senator Campbell. I take it, you have studied pretty 
extensively the history of the six groups that are seeking 
recognition, or at least your statement seemed to be very 
knowledgeable about them? Is that correct?
    Ms. Moretti-Langholtz. Yes, sir; and there are other people 
here with me in the room, who are also scholars of that area.
    Senator Campbell. Okay, what type of material and records 
were considered by the Virginia legislature, when it decided on 
State recognition?
    Ms. Moretti-Langholtz. Okay, my understanding, and I was 
not in Virginia at that time, and Dr. Rountree is here and we 
can ask her, but there lots of records that were county records 
and others that were consulted. May we ask her specifically?
    Senator Campbell. Well, yes, Dr. Rountree, where are you?
    I am interested in establishing some credentials that you 
could share with the committee, frankly.
    Ms. Moretti-Langholtz. Did you hear the question, for State 
recognition, Helen?
    Senator Campbell. And would you identify yourself for the 
record, please, ma'am?

      STATEMENT OF HELEN ROUNDTREE, PROFESSOR EMERITUS OF 
        ANTHROPOLOGY, OLD DOMINION UNIVERSITY, VIRGINIA

    Ms. Rountree. I am Dr. Helen Rountree, Professor Emeritus 
of Anthropology at Old Dominion University. I am also the 
author of the book, ``Pocahontas' people of the Powhatan 
Indians of Virginia Through Four Centuries.''
    I was one of the people who testified at the hearing in 
November of 1982, for state recognition for four of the six 
tribes who are here today.
    The records that were consulted by me and by the people 
organizing the recognition effort consisted of various colonial 
records, colonial government records such as the executive 
journals of the Counsel of Colonial Virginia, and also a wide 
variety of county records, which I had gone through and scoured 
myself, in preparation for writing the book.
    By 1982, I had found practically all there is. Mr. Ragan 
has doubled-checked me in three of the counties since then, and 
he tells me I got it right, which is kind of nice.
    Senator Campbell. That is more than we can say for us 
around here. [Laughter.]
    Ms. Rountree. But we did a thorough look at both colonial 
level and surviving county records.
    Senator Campbell. Would you make those materials, or at 
least a summary of those documented materials available to the 
committee?
    Ms. Rountree. Yes; gladly.
    Senator Campbell. Okay, I would appreciate that.
    Ms. Rountree. We have already submitted it, as a matter of 
fact; at least I drew it up for four of the tribes that I am 
doing now. It is literally a list of everything that got 
recorded, from early colonial times, down to, I quit at 1900.
    Senator Campbell. Okay, I would appreciate it if you would 
do that.
    Ms. Rountree. And that is in some of the thicker stacks of 
stuff that I think you have been sent.
    Senator Campbell. Apparently, we do not have that on file; 
so if you could at least give us a summary of that. I do not 
know who you sent that to, but I am informed that we do not 
have that on file.
    Ms. Rountree. All right, I will be glad to.
    Senator Campbell. Please, thank you very much; and Dr. 
Barton, let me go on with you, before I turn it over to Senator 
Allen.
    I have to tell you, as I mentioned before, the history of 
churches has not been good with traditional Americans; and I 
was very pleased to see that you have been such a big help to 
them. I enjoyed your testimony very, very much.
    Your council is against gaming. What would your position 
be, if the tribes, pursuant to state law, as you understand 
IGRA and how it is written, the Indian Gaming Regulatory Act, 
that the tribes cannot game unless the States approve that, and 
unless they do something comparable to the States? What would 
your position be if they were to undertake gaming sometime in 
the future, even though they have indicated they are not 
interested in that?
    Mr. Barton. I think parts of the council would be 
disappointed. Some may feel a betrayal, particularly if it was 
the current elders that were engaged in that.
    But all would understand that those are their rights in 
Virginia, the same as any other citizen, to pursue that 
development strategy.
    Senator Campbell. Well, this next one is kind of loaded, I 
guess. But I know that bingo is a big thing with churches all 
over this country as a fundraiser, and it is a form of gaming. 
Does your church participate in bingo?
    Mr. Barton. Two of our members very clearly do. That would 
be the Roman Catholic Diocese of Richmond and the Roman 
Catholic Diocese of Arlington. Both are bingo supporters, and 
count on those revenues for that.
    I think they would probably not have a problem, if the 
tribes were engaged in bingo. Other members of the council do 
not share the same feeling, and would be vehemently opposed.
    Senator Campbell. Well, just for the record, I do not have 
a problem with Indians and gaming, and I do not have a problem 
with churches doing bingo; so more power to them.
    Churches often have key documentation, and I asked Dr. 
Rountree if she could provide that for the committee. Do you 
have any information or documentation that might help identify 
tribal members and tribal existence, that you could also supply 
to the committee?
    Mr.Barton. I do not have that directly in our archives, but 
I would anticipate that the Diocese of Southern Virginia, in 
particular, as they get ready for their 400th anniversary of 
the church's arrival, would have some material, I am sure, that 
would be relevant. Also, I think probably the Baptist community 
would probably have information that we could give back, as 
well.
    Senator Campbell. If you or Dr. Moretti-Langholtz could 
find anything of this supporting evidence, if you could turn 
that into the committee, I would appreciate it.
    Ms. Moretti-Langholtz. Senator, actually, that is my 
current research, and I would be happy to give you that 
information.
    Senator Campbell. Thank you, and I am sure Senator Inouye 
would appreciate that, too.
    Senator Allen, did you have some follow-up questions? I 
think I have asked about all I have.
    Senator Allen. You asked many of the questions that I was 
going to ask, Senator Campbell. I want to thank you, again, for 
your insightful questions, and it is good to see all these 
wonderful individuals here.
    On the gambling matter, having gone through the voting for 
a referendum allowing the lottery, when I was in the state 
legislature, I can vouch for the Council of Churches and all of 
those denominations being adamantly opposed to the lottery.
    Mr. Barton. Even the Roman Catholics were, at that point.
    Senator Allen. Yes; that is even though they played bingo 
in their churches. But regardless, I did vote for allowing the 
people to decide, and even Mr. Jefferson said that the lottery 
is a wonderful thing, since it is a voluntary tax. I am not 
going to argue over the lottery. But nevertheless, Virginia 
overwhelmingly had the lottery.
    In the event that the Pamunkey or the Mattaponi or any of 
these tribes seeking recognition now on any of their trust 
lands wanted to have a lottery retail outlet, under Federal 
law, they would be under the same laws and rights as would be 
any other Virginian; and so they could have a lottery outlet.
    In the event, though, that they wanted to have casino 
gambling, they could not, under the Indian gaming regulations, 
as well as this legislation, if it passes. Because in Virginia, 
casino gambling is illegal.
    There are reasons for that. Generally, it would be 
predatory on other businesses, and it is not the desire of 
Virginians to have that, at this time; and I cannot envision it 
at any time in the near future, at least, casino gambling.
    But you could have bingo; you could have lottery. In fact, 
Virginia allows horse racing. The one gambling on horse racing 
track in Virginia is not doing very well, and I cannot imagine 
that these folks would want to lose money.
    Senator Campbell. Right, for most tribal groups 
traditionally, gambling is a form of entertainment. In most 
tribes that I know of, and you probably know, that they call 
them stick games and hand games, out where we come from. It is 
very common, wagering, too.
    Since I was baptized as a Catholic, as a youngster, I was 
in a lot of trouble. I used to think that every Sunday, I was 
gambling by just going to church. A little lightning came 
through the roof, so I was all right. [Laughter.]
    Please go ahead with your questions.
    Senator Allen. Well, let me commend Dr. Moretti-Langholtz 
for her statement here. Her whole statement is in the record.
    I think it lays out the history here, an that for 44 years, 
until the Loving v. Loving decision, which followed Loving v. 
Virginia, which was striking down Virginia's anti-miscegenation 
laws, where someone, a couple of different races, went to 
Washington, DC to get married, and Virginia would not recognize 
that. That is 44 years. That is several generations.
    Thank you for bringing your studies here. It is good to see 
also, Dr. Rountree here. In Virginia, whenever there is a new 
Government office building in Richmond, they name it after a 
former President.
    They have gone through about seven of them. The next one, I 
think, was going to be Woodrow Wilson. I said, no, let us name 
this Government building after Pocahontas.
    We had a wonderful ceremony there, and I asked Dr. Rountree 
to be the person to speak. So it was the first Government 
building not named after a former President and, in fact, it 
was named after a female, and after a Virginia Indian.
    Dr. Rountree is highly respected in her research and her 
knowledge of the cultural anthropology and history of Indians, 
I guess, until 1900; and Pocahontas is gone, so you are 
perfectly fine.
    Ms. Rountree. May I add something?
    Senator Allen. You always may. I always learn from you.
    Ms. Rountree. This is really for Mr. Campbell. No, I want 
to add something. Danielle and I are volunteer scholars. 
Neither of us has ever been paid a penny for our work.
    The Virginia tribes did not have to hire either one of us. 
We went out and did it, anyway. That is why I consider myself 
to be the Powhatan Tribes' semi-tame anthropologist.
    [Applause.]
    Senator Allen. Well, I think that adds to the credibility 
and the veracity of your research, and the positions and 
testimony that you have before us and others on this matter. 
Thank you; I am glad I brought that up.
    Chief Adkins had mentioned, I believe, that the 
Chickahominy, as far as the member criteria, that the 
Chickahominy had one quarter Chickahominy blood. Is that right?
    Mr. Adams. Quantum; yes, sir.
    Senator Allen. Okay, well, Chief Adams, for the Upper 
Mattaponi, what is your criteria?
    Mr. Adams. First, it is linear descendancy. We use 
descendancy for our membership criteria.
    Senator Allen. Could you explain that further?
    Senator Campbell. It means as long as your mother and 
father were on the roll, you could be put on the roll, 
regardless of whether you are married outside or not. So the 
blood can get thinner and thinner, as long as your parents are 
on the roll.
    Senator Allen. Okay, can you speak for the other tribes, 
the Nansemond or the Monacan; are they all similar?
    Mr. Adams. They are here, if you would like to ask them.
    Senator Allen. Well, I think, seeing how the Department of 
Interior people were asking for criteria, I think for the 
record here, are any of the other chiefs are representatives of 
tribes?
    Senator Campbell. Come by the microphone, and identify 
yourself for the record, ma'am.
    Ms. Richardson. I am Chief Richardson of the Rappahannock 
Tribe. Senator Allen, to answer your question, the 
Rappahannocks do have a blood quantum criteria for our 
membership rolls, and it is one quarter blood quantum, proven 
descent, of Rappahannock lineage.
    Senator Allen. Thank you, Chief; does somebody from the 
Monacan want to respond?
    Mr. Branham. My name is Kenneth Branham, and I am chief of 
the Monacans. We do it by lineage, also.
    Senator Allen. That is the same as the Upper Mattaponi?
    Reverend Branham. Yes.
    Senator Allen. Thank you.
    Mr. Bass. I am Chief Bass of the Nansemond Tribe. We go 
strictly by genealogy descent. I would like to comment that we 
all have those membership rolls on record with the BIA, in our 
petitions.
    Senator Allen. Thank you, Chief Bass.
    Mr. Bradby. I am Chief Bradby of the Eastern Chickahominy. 
We follow the lineal descent. Rather than putting blood quantum 
on a particular person, we have found that regardless of what a 
blood quantum was, we suffered the same discrimination acts 
under Plecker, as anyone else did; regardless of what your 
blood quantum was. So that is where we stand.
    Just to go back a little bit, if you allow me this, when we 
went for state recognition, then I was asked a question by one 
of the Senators, if I wanted to join your tribe, how could I do 
that? I said the easiest way is simply to be born into it. I 
think that pretty much answered the question; but thank you.
    Senator Allen. Thank you; I think we have covered all six. 
The question of sovereignty, or mention of sovereignty, was 
mentioned by the Chiefs and others here; and I think you speak 
for all the tribes. What would be the actual impact of Federal 
recognition and providing for your communities?
    Mr. Adkins. Senator Allen, when I look at the Chickahominys 
specifically, I think if you were to look at our roll, and look 
at the percentage of folks that are on public assistance, they 
would be statistically insignificant.
    When we approach the state for recognition, and now the 
Federal Government, what we are dealing with, basically, is 
just acknowledging to the world who we are. We are American 
Indians, recognized by the Federal Government.
    There are things that would be attended to, to the 
recognition, that would help us. The educational opportunities 
would be available to our youngsters are not necessarily 
freebies. But it would open the door, so we would be in the cue 
to compete for those educational opportunities.
    Obviously, health care for our older folks would be a 
consideration. That is a burden, even though they are carrying 
that load today, that would help ease the strain on the elder 
folks within our communities.
    Senator Allen. Chief Adams, do you have anything you would 
want to add to that?
    Mr. Adkins. I would like to read a brief statement, if I 
could, on that.
    Senator Allen. Please.
    Mr. Adkins. I played some games with myself, and one of the 
questions I asked myself, and I have been asked this question 
many times. It says, ``Why do you seek recognition?''
    Every time the question has been asked of me, I think, 
depending on the circumstances, I provide a slightly different 
answer. But I am going to read you this answer that I wrote 
down.

    We are seeking recognition, because we believe we should be 
on equal standing with over 500 other tribes in the United 
States.
    With recognition comes more than just an official 
designation. It means that we are acknowledged for our long-
standing history, our relationships with the colonists, the 
individual States, and the United States of America. It is an 
affirmation that we are truly who we say we are; six individual 
and distinct tribal nations, and the dignity that comes with 
that affirmation.

    Senator Allen. Thank you, Chief; that was the testimony I 
was hoping to have.
    Chief Adkins, when you talk about the history, the very 
poor history, deplorable history of Virginia, on educational 
opportunities, that you endured, and you were talking about 
your own family and other Virginia Indians, I think the 
educational opportunities that would be accorded to those; 
again, there are not many. It is just a few thousand Virginia 
Indians, would they be treated the same as those other Indians 
in those 500-plus other tribes?
    I think that is something that is very important. It is 
very important that, again, this is not restitution; but it is 
making sure that Virginia Indians finally, after hundreds of 
years in this country, and hundreds of years since our 
independence and cessation from Britain, are treated with the 
respect and the dignity and the opportunities of other American 
Indians, who have also been discriminated against, tortured, 
murdered, and deprived of their rights and their lands.
    Thank you both so much. I have no further questions, 
Senator Campbell.
    Senator Campbell. I have no further questions, as well.
    Senator Allen. I just want to say this. I have been through 
many hearings. I have not been here very long. This was a very 
touching hearing, from the comments of obviously the Chiefs of 
all the various tribes, from the Council of Churches, from 
scholars.
    I think that this Senate is so enriched and blessed to have 
you, Senator Campbell; someone with the understanding and your 
experiences, to make us more cognizant, understanding, and 
sensitive to matters that some of us have not experienced.
    But your experiences, knowledge, and leadership are just 
truly uplifting and beneficial to all the Senators, and I thank 
you for your leadership.
    Senator Campbell. Well, I would tell you that I think 
Senator Inouye has been a great leader and an inspiration to 
me, too, and I know he will help as much as he can.
    This is a little bit aside but, you know, we talk about 
recognition; being recognized by the United States. In some 
circles in the Indians, it is not all that thrilling, because 
it is like an admission that you are being recognized by 
somebody that tried to kill you and took away your Government 
and so on.
    That is why some people never, in the olden days, like in 
the case of the Cherokees, they hid out in the hills. The ones 
that were moved to Oklahoma left many behind, because they 
simply did not want to be ``recognized.'' But perhaps a higher 
order is being recognized by the Creator, rather than just some 
form of Government.
    You may not know, Senator, that Indian children are born 
with a blue spot, right at the bottom of their spine. Even if 
the blood gets thinner and thinner, clear down to a 16th, or in 
some cases, even a 32nd, that little blue spot will be there. 
Traditional Indian people believe that God put that spot there 
to remind them who they are.
    Thank you; I have no further questions, but we may submit 
some follow-up questions for the record. If there is anyone in 
the audience who wants to participate or add something to this 
hearing, we will keep the record open for three weeks, as 
Senator Inouye mentioned, and I did, early on.
    It is going to be pretty darn tough to move something like 
this in the final few days. What we have done though, I think, 
is establish a good record and, hopefully, we can revisit this 
early in the new Congress if we do not move it.
    Ken, did you have a final comment that you wanted to make?
    Mr. Adams. Yes; we do have other documentation that we 
would like to submit to the committee. We do have a brief 
tribal history that each of us has written for the committee, 
that we would like to submit.
    Senator Campbell. Okay, if you would submit that, we will 
make sure that that is in the record.
    Mr. Adams. Thank you.
    Senator Campbell. We appreciate the attendance, and this 
hearing is adjourned.
    [Whereupon, at 12 noon, the committee was adjourned, to 
reconvene at the call of the Chair.]
=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


  Prepared Statement of Kenneth Adams, Chief, Upper Mattaponi Indian 
                                 Tribe

    Good morning, Mr. Chairman. I am Kenneth Adams, Chief of the Upper 
Mattaponi Indian Tribe. With me today are Chief Adkins, Chief Bradby, 
Chief Branham, Chief Bass, and Chief Richardson. We are the proud 
descendants of the Keepers of this Great Land when the English 
Colonists arrived in 1607. The Peace Treaty of 1677 established the 
Governing authority of the Pamunkey Queen and the Monacan Chief over 
our ancestors. We are the direct descendants of those colonial tribes. 
Today these nations have come together to ask the Congress of these 
United States to acknowledge our one on one relationship with the 
government of this nation.
    Chief Justice John Marshall in 1832 stated, the Constitution, by 
declaring those treaties already made, as well as those to be made, the 
Supreme Law of the land, has adopted and sanctioned the previous 
treaties made with the Indian Nations.
    Each of these great Chiefs carry in their hearts many burdens of 
our people. I cannot express for them the sorrows they have endured. 
But I can express to you a sample of what we have all endured. When I 
was a child growing up in King William County, Virginia, high school 
education for Indians in the state was almost nil. Even before I 
entered grade school, my older brothers and sisters were being sent off 
to Oklahoma and Michigan to complete high school. I was the first 
Indian to graduate from King William High School in 1965. Myself in 
1967 and my brother in 1968 served in Vietnam. Shortly afterwards, I 
went to visit my brother. It was almost like walking in the house of a 
stranger. Not because of our experiences in Viet Nam. It was because of 
the policies of the State of Virginia. It was the policy that forced 
him from home in order to seek a high school education. And what was 
his response to that policy? His response was to put his life on the 
line for the United States of America. I can surely tell you today, in 
these individual tribes, there are many more stories like this one. I 
can say with 100 percent certainty, when it comes to defending this 
homeland, Virginia Indians have spilt their blood. You might ask us, 
why do you come now? We have an answer. For almost 400 years, Virginia 
attempted to diminish our presence. After 1700 we were pushed onto 
increasingly smaller pieces of land and by the mid 1900's Virginia was 
attempting to document us out of existence. The fight to maintain our 
identity was a struggle our Mothers and Fathers fought well, but they 
lacked education and resources. They had been told on several occasions 
no help from the Federal Government was available. In 1946 one of 
Chiefs attempted to obtain high school educational resources through 
the Office of Indian Affairs. The only help offered was in the form of 
education at a Federal boarding school. No help was available in 
Virginia.
    If the state government was attempting to deny our existence and 
the Federal Government provided little assistance, where could these 
people possibly go? That is why it has taken us so long to get here.
    Virginia has recognized its errors. Along with bill H.R. 2345 
sponsored by Congresspersons Moran and Davis, Senator Allen, with the 
support of Senator Warner, has introduced S. 2964 granting Federal 
Acknowledgment to these six tribes. In 1999, the Virginia General 
Assembly passed a Resolution with over whelming support asking for 
Congressional Recognition of these tribes. King William County, 
Virginia, home of the Upper Mattaponi, also passed a resolution in 
favor of Federal Acknowledgment. We have the support of the majority of 
the Virginia Congressmen and Women. As you can see, we have 
overwhelming support from the Commonwealth of Virginia.
    Now, the U.S. Congress has the opportunity to make a historical 
change. A positive change that would bring honor to you as well as 
honor to us.
    We ask you to make the right decision and support this bill for 
Federal Acknowledgment of Virginia Indians.
                                 ______
                                 

  Prepared Statement of Hon. James P. Moran, U.S. Representative from 
                                Virginia

    Good morning and thank you, Mr. Chairman.
    I appreciate your willingness to hold this hearing and providing us 
with an opportunity to help tell the story of six of Virginia's Native 
American tribes. The story of these tribes is compelling, but I ask for 
more than your sympathetic ear. I also ask for action on legislation 
(S. 2694) that Senators George Allen and John Warner introduced, which 
is a companion to the bill Rep. Jo Ann Davis and I sponsored in the 
House, to grant these tribes Federal recognition.
    I ask that the Federal Government, starting with this distinguished 
Committee on Indian Affairs, recognize the Chickahominy, the Eastern 
Chickahominy, the Monacan, the Nansemond, the Rappahannock and the 
Upper Mattaponi Tribes. These tribes exist, they have existed on a 
substantially continuous basis since before the first western European 
settlers stepped foot in America; and, they are here with us today.
    I know there is great resistance from Congress to grant any Native 
American tribe Federal recognition. And, I can appreciate how the issue 
of gambling and its economic and moral dimensions have influenced many 
Members' perspectives on tribal recognition issues.
    I think the circumstances and situation these tribes have endured 
and the legacy they still confront today, however, outweigh these 
concerns. Congress has the power to recognize these tribes. It has 
exercised this power in the past, and it should exercise this power 
again with respect to these six tribes.
    Like much of our early history as a nation, the Virginia tribes 
were subdued, pushed off their land, and, up through much of the 20th 
Century, denied full rights as U.S. citizens. Despite their devastating 
loss of land and population, the Virginia Indians successfully overcame 
years of racial discrimination that denied them equal opportunities to 
pursue their education and preserve their cultural identity. That story 
of survival doesn't encompass decades, it spans centuries of racial 
hostility and coercive State and State-sanctioned actions. Unlike most 
tribes that resisted encroachment and obtained Federal recognition when 
they signed peace treaties with the Federal Government, Virginia's six 
tribes signed their peace treaties with the Kings of England. Most 
notable among these was the Treaty of 1677 between these tribes and 
Charles II.
    In more recent times, this racial hostility culminated with the 
enactment and brutal enforcement of Virginia's Racial Integrity Act of 
1924. This act empowered zealots, like Walter Plecker, a State 
official, to destroy records and reclassify in Orwellian fashion all 
non-whites as ``colored.'' To call yourself a ``Native American'' in 
Virginia was to risk a jail sentence of up to 1 year.
    Imagine a married couple unable to obtain the release of their 
newborn child from the hospital until they change their child's 
ethnicity on the medical record to read ``colored,'' not ``Native 
American.'' Or, imagine being told that you have no right to reclaim 
and bury your ancestors once you learn they were being stored in a 
museum vault.
    Or, imagine your frustration upon finding your legal efforts to 
appeal a local water issue in Federal court because you're told your 
suit has no standing since your tribe doesn't exist.
    Or, imagine being told that the only reason you're seeking Federal 
recognition is to establish a gambling casino.
    Or, imagine the Indian mission school that your grandparents and 
your parents attended receiving Federal recognition as a historic 
landmark, but yet you and your daughters and sons not recognized by the 
Federal Government as Native Americans.
    Mr. Chairman, these are just a few of the examples of the 
indignities visited upon the members of the six tribes present here 
today.
    I mention these indignities because they are part of a shameful 
legacy experienced in our lifetime. Some are indignities that are still 
visited upon members of the tribes today.
    More to the point, this legacy has also complicated these tribes' 
quest for Federal recognition, making it difficult to furnish 
corroborating state and official documents. It wasn't until 1997 when 
then Governor George Allen signed legislation directing state agencies 
to correct state records that had deliberately been altered to list 
Virginia Indians on official state documents as ``colored.'' In recent 
years, the Virginia tribes have filed their petitions with the Bureau 
of Indian Affairs. They have no deep pockets and lack the financial 
means to rigorously pursue the lengthy and resource intensive petition 
process. Even more discouraging, they have been told by bureau 
officials not to expect to see any action on their petitions within 
their lifetime. The GAO study this committee reviewed earlier this year 
confirms this backlog.
    Asking them to wait another 10 years or more is not what these 
tribes deserve. Many of the members are elderly and in need of medical 
care and assistance. They lack health insurance and pensions because 
past discrimination denied them opportunities for an advanced education 
and a steady job. Federal recognition would entitle them to receive 
health and housing assistance.
    It would be one of the greatest of ironies and a further injustice 
to these tribes if in our efforts to recognize the 400th anniversary of 
the first permanent European settlement in North America, we had failed 
to recognize the direct descendants of the Native Americans who met 
these settlers.
    Before closing, let me touch upon one issue, the issue of gambling, 
that may be at the forefront of some Members' concerns. In response to 
such concerns, I have worked with Rep. Jo Ann Davis and others in the 
Virginia congressional delegation to close any potential legal 
loopholes in this legislation to ensure that the Commonwealth of 
Virginia could prevent casino-type gaming by the tribes. Having 
maintained a close relationship with many of the members of these 
tribes, I believe they are sincere in their claims that gambling is 
inconsistent with their values. Many of the tribes live in rural areas 
with conservative family and religious beliefs. All six tribes have 
established non-profit organizations and are permitted under Virginia 
law to operate bingo games. Despite compelling financial needs that 
bingo revenues could help address, none of the tribes are engaged in 
bingo gambling.
    Mr. Chairman, the real issue for the tribes is one of 
acknowledgment and the long overdue need for the Federal Government to 
affirm their identity as Native Americans. I urge you to proceed with 
action on this proposal.
    Thank you again for arranging this hearing.
                                 ______
                                 

  Prepared Statement of Michael R. Smith, Director, Tribal Services, 
                        Bureau of Indian Affairs

    Good morning, Mr. Chairman and members of the committee. My name is 
Mike Smith and I am the Director for the Office of Tribal Services 
within the Bureau of Indian Affairs at the Department of the Interior. 
I am here today to provide the Administration's position of opposition 
to S. 2694, a bill to ``extend Federal recognition to the Chickahominy 
Tribe, the Chickahominy Indian Tribe, Eastern Division, the Upper 
Mattaponi Tribe, the Rappahannock Tribe, Inc., the Monacan Tribe, and 
the Nansemond Tribe.''
    Under 25 CFR Part 83, groups seeking Federal acknowledgment as 
Indian tribes are reviewed in a thorough and objective manner. Each 
petitioning group must demonstrate that they meet all the seven 
mandatory criteria established in these Federal regulations. The seven 
mandatory criteria are that a petitioner: (1) demonstrates that it has 
been identified as an American Indian entity on a substantially 
continuous basis since 1900; (2) demonstrates that a predominant 
portion of the petitioning group comprises a distinct community and has 
existed as a community from historical times until the present; (3) 
demonstrates that it has maintained political influence or authority 
over its members as an autonomous entity from historical times until 
the present; (4) provides a copy of the group's present governing 
document including its membership criteria. In the absence of a written 
document, the petitioner must provide a statement describing in full 
its membership criteria and current governing procedures; (5) 
demonstrates that its membership consists of individuals who descend 
from a historical Indian tribe or from historical Indian tribes which 
combined and functioned as a single autonomous political entity; (6) 
demonstrates that the membership of the petitioning group is composed 
principally of persons who are not members of any acknowledged North 
American Indian tribe, and (7) demonstrates that neither the petitioner 
nor its members are the subject of congressional legislation that has 
expressly terminated or forbidden the Federal relationship. A criterion 
shall be considered met if the available evidence establishes a 
reasonable likelihood of the validity of the facts relating to that 
criterion. A petitioner must satisfy all seven of the mandatory 
criteria in order for tribal existence to be acknowledged.
    All six of these groups who would benefit from enactment of S. 
2694, have submitted letters of intent and partial documentation to 
petition for Federal acknowledgment. However, none of these petitioning 
groups have submitted completed documented petitions demonstrating 
their ability to meet all seven mandatory criteria.
    The Federal acknowledgment regulations provide a uniform mechanism 
to review and consider groups seeking Indian tribal status. This 
legislation, however, allows these groups to bypass these standards--
allowing them to avoid the scrutiny to which other groups have been 
subjected.
    This concludes my prepared statement. I will be happy to answer any 
questions the committee may have.

[GRAPHIC] [TIFF OMITTED] T4575.001

[GRAPHIC] [TIFF OMITTED] T4575.002

[GRAPHIC] [TIFF OMITTED] T4575.003

[GRAPHIC] [TIFF OMITTED] T4575.004

[GRAPHIC] [TIFF OMITTED] T4575.005

[GRAPHIC] [TIFF OMITTED] T4575.006

[GRAPHIC] [TIFF OMITTED] T4575.007

[GRAPHIC] [TIFF OMITTED] T4575.008

[GRAPHIC] [TIFF OMITTED] T4575.009

[GRAPHIC] [TIFF OMITTED] T4575.010

[GRAPHIC] [TIFF OMITTED] T4575.011

[GRAPHIC] [TIFF OMITTED] T4575.012

[GRAPHIC] [TIFF OMITTED] T4575.013

[GRAPHIC] [TIFF OMITTED] T4575.014

[GRAPHIC] [TIFF OMITTED] T4575.015

[GRAPHIC] [TIFF OMITTED] T4575.016

[GRAPHIC] [TIFF OMITTED] T4575.017

[GRAPHIC] [TIFF OMITTED] T4575.018

[GRAPHIC] [TIFF OMITTED] T4575.019

[GRAPHIC] [TIFF OMITTED] T4575.020

[GRAPHIC] [TIFF OMITTED] T4575.021

[GRAPHIC] [TIFF OMITTED] T4575.022

[GRAPHIC] [TIFF OMITTED] T4575.023

[GRAPHIC] [TIFF OMITTED] T4575.024

[GRAPHIC] [TIFF OMITTED] T4575.025

[GRAPHIC] [TIFF OMITTED] T4575.026

[GRAPHIC] [TIFF OMITTED] T4575.027

[GRAPHIC] [TIFF OMITTED] T4575.028

[GRAPHIC] [TIFF OMITTED] T4575.029

[GRAPHIC] [TIFF OMITTED] T4575.030

[GRAPHIC] [TIFF OMITTED] T4575.031

[GRAPHIC] [TIFF OMITTED] T4575.032


</pre></body></html>
